<html>
<title> - MS-13 AND COUNTING: GANG ACTIVITY IN MONTGOMERY AND PRINCE GEORGE'S COUNTIES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
  MS-13 AND COUNTING: GANG ACTIVITY IN MONTGOMERY AND PRINCE GEORGE'S 
                                COUNTIES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 6, 2006

                               __________

                           Serial No. 109-182

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
30-329                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
BRIAN P. BILBRAY, California

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                         Benjamin Chance, Clerk
                         Michael Galindo, Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 6, 2006................................     1
Statement of:
    Colvin, Carolyn, director, Department of Health and Human 
      Services, Montgomery County; Robert Green, warren, 
      Montgomery County Correctional Facility; Michael Butler, 
      gang prevention coordinator, Prince George's County; Luis 
      Cardona, youth violence prevention coordinator, Montgomery 
      County; Daniel Arretche, director, Crossroads Youth 
      Opportunity Center; and Richard Brown, small business owner    49
        Arretche, Daniel.........................................    73
        Brown, Richard...........................................    82
        Butler, Michael..........................................    66
        Colvin, Carolyn..........................................    49
        Green, Robert............................................    57
    Johnson, Jack B., county executive, Prince George's County, 
      MD; George Leventhal, chairman, Montgomery County Council; 
      Assistant Chief John King, Montgomery County Policy 
      Department; and Captain Bill Lynn, commander, Violent 
      Crimes Task Force, Gang Unit, Prince George's County Police 
      Department.................................................    14
        Johnson, Jack B..........................................    14
        King, John...............................................    28
        Leventhal, George........................................    24
        Lynn, Captain Bill.......................................    32
Letters, statements, etc., submitted for the record by:
    Arretche, Daniel, director, Crossroads Youth Opportunity 
      Center, prepared statement of..............................    75
    Brown, Richard, small business owner, prepared statement of..    84
    Butler, Michael, gang prevention coordinator, Prince George's 
      County, prepared statement of..............................    68
    Colvin, Carolyn, director, Department of Health and Human 
      Services, Montgomery County, prepared statement of.........    52
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    12
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     5
    Green, Robert, warren, Montgomery County Correctional 
      Facility, prepared statement of............................    60
    Johnson, Jack B., county executive, Prince George's County, 
      MD, prepared statement of..................................    18
    King, John, assistant chief, Montgomery County Policy 
      Department, prepared statement of..........................    30
    Leventhal, George, chairman, Montgomery County Council, 
      prepared statement of......................................    26
    Lynn, Captain Bill, commander, Violent Crimes Task Force, 
      Gang Unit, Prince George's County Police Department, 
      prepared statement of......................................    35


  MS-13 AND COUNTING: GANG ACTIVITY IN MONTGOMERY AND PRINCE GEORGE'S 
                                COUNTIES

                              ----------                              


                      WEDNESDAY, SEPTEMBER 6, 2006

                          House of Representatives,
                            Committee on Government Reform,
                                                   Takoma Park, MD.
    The committee met, pursuant to notice, at 12:30 p.m., in 
the Takoma Park City Council Chambers, Takoma Park, MD, Hon. 
Tom Davis (chairman of the committee) presiding.
    Present: Representatives Tom Davis, Cummings, Van Hollen, 
and Ruppersberger.
    Also present: Representative Wolf.
    Staff present: David Marin, staff director; Jennifer 
Safavian, chief counsel for oversight and investigations; A. 
Brooke Bennett, counsel; Mindy Walker, professional staff 
member; Benjamin Chance and Michael Galindo, clerks;
    Chairman Tom Davis. Let me apologize for our tardiness. 
Representative Wolf and I were in a meeting with our Governor 
at the Capitol that went a little longer on the future of the 
rail at Tyson's Corner. We got out as quick as we could. Chris, 
we ran into some traffic, which does not surprise anybody.
    Let me thank my distinguished colleague Chris Van Hollen 
for, really, his responsibility for this hearing, calling our 
attention to the problem over here. He has been a very active 
member of the Government Reform Committee legislatively and on 
this particular issue. Chris, thank you for hosting this today.
    I would ask unanimous consent that my distinguished 
colleague from the Commonwealth of Virginia, Mr. Frank Wolf, be 
able to participate in today's hearing.
    Mayor Porter, would you like to make a few opening remarks 
before we go to ours?
    And thank you for hosting this, as well.
    Mayor Porter. Well, thank you, Mr. Chairman and members of 
the committee.
    We welcome you to the city of Takoma Park, and I welcome 
especially Chris Van Hollen, who has been here many times 
before, but we are very glad to have him representing us in 
Congress.
    We are pleased to host this hearing on the extremely 
important topic of gang violence. As you know, I am sure, there 
have been some very serious incidents of gang violence in this 
area right across the border in the Langley Park area.
    We are concerned because we know that gangs do not respect 
political boundaries, and because of the negative effects gangs 
have on our young people and on our community.
    In Takoma Park, we have actually taken a few steps to 
address in some small way the issue of gang violence. I was 
very pleased to be a member of the Bi-county Task Force on 
Gangs created by officials in Montgomery and Prince George's 
Counties. As a member of that task force, I learned that the 
most effective way of controlling gang activity is to prevent 
young people from joining gangs.
    We also supported the location of the Crossroads Youth 
Opportunity Center in Takoma Park. This was one of the 
recommendations of the Bi-county Task Force on Gang Violence, 
and it offers special services to young people at risk of 
joining gangs.
    The city of Takoma Park has also hosted two public forums 
to educate parents and other adults about gangs, one focused on 
law enforcement and the other focused on other efforts to 
prevent young people from joining gangs.
    Along with Montgomery and Prince George's Counties, we have 
also created a CSAFE area. CSAFE stands for Collaborative 
Supervision and Focused Enforcement in the Langley Park area. 
This program is State funded, and it helps to coordinate law 
enforcement and crime prevention in high crime areas. So it's 
very appropriate for that area.
    We also regard many of the recreational and education 
programs that we offer in this new building as very important 
in steering young people away from gangs. It gives them 
constructive things to do with their time.
    The issue of gang violence continues to be a very important 
issue in Takoma Park, and we thank you for taking the time to 
have us here and to address this very important topic.
    Thank you.
    Chairman Tom Davis. Well, thank you very much.
    I want to thank everybody for coming out to Taloma Park. 
The examination of gang activity in Maryland is not just 
Montgomery and Prince George's Counties. In July, we looked at 
the strikingly strong presence of MS-13 and other Latino gangs 
in northern Virginia. Maryland also has a strong MS-13 
presence, but it doesn't stop there: if you thought Crips and 
Bloods were the stuff of Los Angeles gang wars, think again.
    During our July hearing, we learned two basic truths: one, 
gangs are transient; and, two, gangs require more than just a 
law enforcement response. The bottom line is that gangs do not 
observe neat jurisdictional boundaries. We have reports of 
Maryland law enforcement picking up gang bangers with Virginia 
license plates, and gang members from Maryland currently 
serving time in Virginia jails. With this level of mobility, 
law enforcement needs to be able to move easily across 
boundaries--whether city and State, Federal and local, or 
simply across State lines.
    The northern Virginia Regional Gang Task Force, which we 
heard from in July and which was set up by my colleague Frank 
Wolf, is doing just this. It is coordinating efforts among 13 
Virginia jurisdictions. Law enforcement officials in Montgomery 
and Prince George's Counties are coordinating through a similar 
organization called the Regional Area Gang Enforcement Task 
Force. This RAGE Task Force includes State, local, and Federal 
law enforcement, including the Park Police in whose 
jurisdiction gang activity often takes place.
    Many recognize that the Northern Virginia Task Force has 
been extremely successful in its suppression and enforcement 
efforts, and some go so far as to attribute increased gang 
activities in Maryland and other jurisdictions to the success 
in northern Virginia. As we craft our regional strategies for 
combating gangs, we need to be careful not to cutoff one head 
only to see it sprout up somewhere else.
    We need to recognize fighting gang activity requires 
regional coordination, and we look forward to hearing about 
this coordination from enforcement officials in Montgomery and 
Prince George's Counties.
    But if our previous hearing taught us anything, it's that 
enforcement is only part of the equation. Any response to gang 
activity must include a prevention and intervention component 
also. Prevention and intervention help us answer the important 
questions, such as how you divert at-risk kids from the lure of 
gangs and how do you best address the needs of gang-involved 
youth looking for something more.
    Gangs prey on young people who lack role models, who spend 
time on the street with no constructive activities, and who are 
simply lost in the system. These wanderers become the 
perpetrators of the gruesome murders, stabbings, and violent 
felonies we too often read about in the papers. And, that's all 
before they turn 16.
    Fortunately, like the Northern Virginia Regional Gang Task 
Force, Montgomery and Prince George's Counties have developed 
effective prevention and intervention tools. We will hear from 
elected officials and representatives from the Department of 
Health and Human Services from these two counties regarding 
their public health approach to a public safety issue. We will 
also hear from the Director of the Crossroads Youth Opportunity 
Center, the Warden of the Montgomery County Correctional 
Facility, and a former gang member-turned-small-business-owner, 
each of whom directs their own unique approach to helping those 
who are at-risk or are current or former gang members.
    None of the good news we will hear today would have been 
possible without the efforts of my good friends and colleagues 
Frank Wolf and Chris Van Hollen. Congressman Wolf's response to 
gang activity in his district triggered a region-wide 
recognition of the presence and prevalence of gang activity, 
and he secured significant Federal fundings to fight gangs in 
northern Virginia.
    Congressman Van Hollen also secured over $2.3 million in 
Federal funding to support joint county initiatives, including 
the Crossroads Youth Opportunity Center, community-based after 
school programs, and increased policing activities.
    When you put the Federal funding and the good activities it 
supports together, what you get are safer streets, safer 
schools, and alternatives for at-risk youth. Ultimately, this 
means your neighborhood is safer, and the region will not 
become a haven for gang activity and violence.
    But challenges persist. When Frank and I went to El 
Salvador last year, we learned of prisons that are recruiting 
grounds for MS-13 and other violent gangs in the region. In 
fact, a convicted murderer who escaped from a Salvador prison 
and sought refuge in Virginia's Loudoun County was just picked 
up by Federal and local law enforcement and is now in Federal 
custody awaiting deportation.
    We are aware of the unique challenges gangs present. We 
should continue to try to identify and understand the sources 
of the problems--be they international jails or the streets and 
schools in our own backyards.
    This is why we call hearings like this, to hear about the 
successes of our law enforcement and prevention communities and 
how we in Congress can continue to assist you.
    I want to thank all of our witnesses for being here today, 
and, again, I want to thank the city of Takoma Park for so 
generously making this facility available to us.
    Members will have 7 days to submit opening statements for 
the record, and I will now recognize my colleague Mr. Van 
Hollen.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T0329.001
    
    [GRAPHIC] [TIFF OMITTED] T0329.002
    
    [GRAPHIC] [TIFF OMITTED] T0329.003
    
    Mr. Van Hollen. Well, thank you very much, Mr. Chairman, 
and I will be brief because you have covered a lot of 
territory.
    Let me also begin by thanking the mayor of Takoma Park, 
Kathy Porter, for her hospitality today and for all of her 
leadership in our area. I want to thank you for all that you 
have done for our community.
    I also want to thank Chairman Tom Davis for his leadership 
on this very important issue. As he said, we had a hearing 
earlier on the Virginia side of the Potomac River. We are now 
here on the Maryland side of the Potomac River. He has done a 
terrific job of drawing attention to this very, very important 
issue and working on a regional basis and on a bipartisan basis 
to try and get things done.
    Let me also thank my colleague Frank Wolf, who really 
launched this effort for our region a number of years ago. He 
saw what was an emerging problem, and he did not just sit by 
and look at it going by. He actually decided to take some very 
significant action, and we are very pleased that through 
working with him, Congressman Davis and others, he has been 
able to provide the resources, use his influence on the 
Appropriations Committee to provide the resources that we need 
in our region to fight gang violence.
    And as Congressman Davis has pointed out and others, this 
is not just a Maryland problem or just a Virginia problem or 
D.C. problem. It is truly a regional issue. It is a national 
issue, and it is an international issue. And if you just 
succeed in fighting a gang in one place and it moves to 
another, it does not do you any good. So you have to fight it 
on a regional basis, and I want to thank them publicly for 
their real leadership on this issue.
    Let me also thank County Executive Jack Johnson and County 
Executive Doug Duncan for also seizing the initiative on this a 
couple of years ago. Unfortunately County Executive Doug Duncan 
is having hip replacement surgery today and could not be here, 
but I want to thank both of them.
    Jack Johnson and Doug Duncan teamed up. They did form the 
Joint County Gang Prevention Task Force. They understood we had 
an emerging problem, and again, they did not just want to sit 
and watch it get worse. They wanted to intervene and address 
the issue head on.
    And as a result of that Joint County Gang Task Force and 
the local and Federal partnership, I do believe we have made 
considerable progress. We have a ways to go. No doubt about it, 
but we have helped address the issue, confront the issue, and 
now we are working to roll back the issue.
    And I want to also thank the leaders from our county 
councils. I am very pleased to have George Leventhal here, who 
is president of the Montgomery County Council. They have been a 
real team player in this effort, and thank you for your 
leadership as well.
    And I should also mention the State's Attorneys Glen Ivy in 
Prince George's County and the State's Attorneys Offices on 
both sides have also been very supportive and involved in this 
effort.
    The task force essentially has representatives to deal with 
the multi-pronged approach. As you said, Mr. Chairman, we need 
to deal with three components: suppression, the law enforcement 
component; make sure that people who are committing crimes are 
taken off the streets and dealt with appropriately.
    But we also need to address the prevention part of this, 
and obviously, to the extent that we can prevent a young person 
from getting in trouble in the first place, getting involved in 
a gang in the first place, we have done an even better job of 
protecting the community and insuring that a young life is a 
life that is productive rather than one that is a cost to 
society.
    So we want to focus on those prevention efforts. You have 
mentioned the Crossroads Youth Opportunity Center. I think 
that's a terrific example of us moving forward in this Federal 
and local partnership. We also have the suppression component. 
I am very pleased that the representatives from the police 
department are here both on the Prince George's County side and 
the Montgomery County side. I think they have been working 
together as a team.
    So this is an effort that I think we have seen success both 
in terms of regionally in Maryland, Prince George's County, 
Montgomery County working together, but also regionally 
throughout the D.C. metropolitan area where Virginians and 
Marylanders and representatives from the District of Columbia 
have been working together to address this issue.
    So I want to thank my colleagues from Virginia for their 
support and effort in this regional partnership. And I see we 
have been joined by my colleague, Elijah Cummings, and I want 
to welcome him and thank him for all of his leadership as well.
    Let me just if I could mention a few other elected 
officials that I have a list of who I know are attending. I am 
very pleased to have Council Member Howie Dennis here. I do 
want to recognize Howie. Thank you for being here.
    And Council Member Marilyn Praisner. Thank you very much to 
both of you for your leadership.
    We also have Maryland Deputy Secretary of State Luis 
Borunda representing the Secretary of State of Maryland's 
Office.
    We also have a number of folks who are going to be 
testifying a little later, and we will introduce them as they 
come up.
    Chairman Tom Davis. Thank you very much.
    I want to welcome all of the guests in the room.
    Mr. Wolf.
    Mr. Wolf. Thank you, Chairman Davis.
    I want to thank you for putting all of the time and 
attention in this, which is very important because the public 
has to be part of this. I also want to thank Chris for his 
leadership. Many times we would walk over to the floor together 
to a vote, and Chris raised this issue and said how important. 
And I think he is exactly right.
    This region has to work together. You cannot just solve the 
problem in Fairfax without it popping up in Loudoun, and the 
same way if you cannot solve it in just Virginia you come over 
here. So I think he is exactly right.
    The last thing I would say is it is a tough problem, but it 
is doable. It is solvable. It can be dealt with in a very 
successful way.
    And I think finally, with the education and the suppression 
and the intervention combined, and not thinking just in terms 
of the law enforcement, I think we are well along the way in 
northern Virginia to solving it, and you are here. but I want 
to thank both Tom and Chris Van Hollen for their leadership and 
making the effort and showing that we can work together both 
across political lines, but also political boundaries. So thank 
you very much, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    And I want to thank you and certainly Congressman Van 
Hollen for your leadership, and I want to thank Congressman 
Wolf for being here and all of you who are here and are 
witnesses.
    No one is immune from the impact that gangs can have on a 
community. Gang violence is widespread, dangerous, and often 
deadly. Drive-by shootings, carjackings, home invasions, 
intimidation tactics, and the loss of innocent life have become 
all to frequent, paralyzing neighborhoods and simply destroying 
lives.
    People who join gangs often establish a lifelong pattern of 
involvement with the criminal justice system. For some the gang 
life style has even passed down as a family tradition leading 
to endless cycles of violence and endless cycles of despair. 
Notably, this is not simply an inner city problem. Gangs reach 
every corner of every county of every State in this country. 
Today gangs and the aspects of the violence they attract draw 
young people from all walks of life, from all races, and from 
all economic backgrounds.
    Gang violence is a persistent problem facing not only the 
more publicized locations of Montgomery County and Prince 
George's County, but also my constituents in the Seventh 
Congressional District of Maryland, which includes 
neighborhoods in Baltimore City and Howard County and Baltimore 
County.
    Hundreds of gangs exist in Baltimore City, including youth 
gangs that operate in neighborhoods or schools and drug gangs. 
The vast majority of our neighborhood gangs composed of 18 to 
15 youth who focus their activities in a specific housing area, 
but a smaller number follows the culture of nationally 
recognized gangs, such as MS-13.
    In Baltimore County, approximately 35 gangs are in 
operation. About half of these are the smaller neighborhood or 
school variety, and the rest identify with national gangs, such 
as the Crips, the Bloods, and to a lesser extent MS-13.
    In Howard County an entire suburban and rural area, the 
greatest gang threat comes from MS-13. Police observe MS-13 
members traveling into Howard County from Prince George's and 
Montgomery Counties and Washington, and so as Congressman Wolf 
and Congressman Van Hollen have said, this is a regional 
problem that we must all address.
    In Howard County last year about 25 to 30 incidents were 
linked to MS-13 ranging from tagging and vandalism to 
robberies, theft, auto theft, and sometimes violent crimes, 
such as stabbing and rape.
    In Takoma Park, MS-13 has similarly infiltrated the 
community. That is why the FBI in 2004 established an MS-13 
National Gang Task Force, to bring together State, local, 
Federal and foreign agencies to address the growing trend of 
violence by MS-13 and similar such gangs.
    Other partnerships include the Mid-Atlantic Regional Gang 
Investigators Network in which the agencies seek to improve 
officer and public safety through a variety of means, and the 
Gang Intervention Partnership Unit, which conducts outreach to 
the community to educate residents about the dangers of gang, 
how to identify possible gang activity, and whom to call to 
report it.
    Furthermore, because of the nexus between violent gang 
activity and drug trafficking, the Washington-Baltimore HIDTA 
headed by my good friend Tom Carr and funded by the Officer of 
National Drug Control Policy has been an active participant in 
MARGIN (phonetic).
    We must continue to work together to address this growing 
threat, to win this battle on behalf of innocent law abiding 
citizens. If we do not put an end to the vicious terror of the 
gang culture, the impact will continue to be felt by 
generations yet unborn.
    I commend our panelists today who work to combat the threat 
of gang activity. I welcome Kathy Porter, Jack Johnson, George 
Leventhal and the rest of the panelists who have been working 
tirelessly to help our area rid ourselves of gangs and gang 
violence, and so I look forward to the hearing today, and 
again, I want to thank you, Mr. Van Hollen and Mr. Chairman, 
for your leadership.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T0329.048

[GRAPHIC] [TIFF OMITTED] T0329.049

    Chairman Tom Davis. Thank you very much.
    We are now ready to get to our panel. Thank you for your 
patience. Again, our apologies for starting a little late.
    Members will have 7 days to submit opening statements for 
the record. Our first panel, the Honorable Jack B. Johnson, the 
county executive from Prince George's County, MD; the Honorable 
George Leventhal, the chairman of the Montgomery County 
Council; Assistant Chief John King, Montgomery County Police 
Department; and Captain Bill Lynn, the commander of Violent 
Crimes Task Force, Gang Unit, Prince George's County Police 
Department.
    It is our policy that we swear all witnesses in before you 
testify. So just rise with me and raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you.
    Mr. Johnson, we will start with you and we will move on 
down. We have a light in front of you. It is green and turns 
orange after 4 minutes and red after 5. Your entire statement 
is part of the record, so please try to keep it within 5 
minutes. It moves things along, but I am not going to gavel you 
down if you feel you want to go on.
    Thank you very much for being with us.

    STATEMENTS OF JACK B. JOHNSON, COUNTY EXECUTIVE, PRINCE 
  GEORGE'S COUNTY, MD; GEORGE LEVENTHAL, CHAIRMAN, MONTGOMERY 
 COUNTY COUNCIL; JOHN KING, ASSISTANT CHIEF, MONTGOMERY COUNTY 
 POLICY DEPARTMENT; AND CAPTAIN BILL LYNN, COMMANDER, VIOLENT 
  CRIMES TASK FORCE, GANG UNIT, PRINCE GEORGE'S COUNTY POLICE 
                           DEPARTMENT

                  STATEMENT OF JACK B. JOHNSON

    Mr. Johnson. I thank you very much, Mr. Chairman. I hope my 
microphone is working.
    Let me first say, Mr. Chairman, we are just so really 
pleased that you and the committee have come down here today to 
speak to us.
    Mr. Wolf, we want to really thank you so much. Congressman 
Wolf, when I first met you at the opening of the Wilson Bridge, 
I personally told you how much I appreciate what you are doing 
on the gang and for bringing recognition that this is a problem 
not only in this region, but in the entire country. We really 
appreciate your effort on that.
    And to Congressman Van Hollen, we want to thank you for 
what you have done in our community assisting us in the region, 
and so likewise Congressman Cummings. Thank you so much for 
this opportunity.
    You have my statement and so, therefore, I will not read 
all of this.
    Chairman Tom Davis. Let me have whoever is getting the 
volume up to turn it up a little bit.
    Mr. Johnson. OK.
    Chairman Tom Davis. I can hear you, but I am not sure 
everybody can.
    Mr. Johnson. We have submitted our written statement. So, 
therefore, I will not read the entire statement because I want 
to really touch on some of the core issues that I think are 
just really important.
    The first one is to recognize that gang is a problem in the 
United States and the region.
    The second is that the idea that suppression is the way to 
go is something that really does not work in and of itself. As 
you know, I was a State's Attorney for Prince George's County 
for 8 years, and we took that approach in terms of gang tough 
prosecution, and I remember in many of the cases that I 
prosecuted there were very young people, and we thought for a 
long time that was the way to do it: infiltration of the gang 
and get the intelligence and then go after them when they 
commit criminal activities.
    That is absolutely important, critical to the part of 
suppression that we believe that's so important, but it is only 
one factor.
    The other thing that we recognize is that you cannot do it 
alone, and I think that is why this task force was formed. Doug 
Duncan called me 1 day and said, ``Jack, you have a gang 
problem. We have a gang problem. We sit right next to each 
other, and unless we work together we cannot get it done.''
    So Doug and I met and we decided that, you know, it cannot 
be suppression alone, that what we have to do is look 
holistically, look at why young people enter into a gang. What 
are the social factors? What are the family structures? What 
are the health issues concerning those young people? What are 
the attractors, and why do they deal with the gang?
    And so we decided then to bring the police department and 
all segments of our community together. We have lifted them for 
you. Juvenile services, as I indicated, the health services, 
the police department, social services, all of that, and we 
formed this joint task force.
    Now, they have 20 recommendations that they will lay out 
for you as to what they came up with, but what we determined is 
that in order to be successful, it must be a holistic approach, 
and the holistic approach must include every segment of the 
community: teachers, very important; family; recognition of 
colors; why young people are alone; what are the signs of 
gangs; all of those kinds of things that will first bring to 
the public the idea that it exists and that we need to 
recognize signs of gangs.
    And I think that is one of the great things, Congressman 
Wolf, that you have done, is to say to the public it does exist 
and it is time to find out what is going on so that we can be 
effective in stopping that.
    So we began by creating, as I indicated, the task force. 
But I want you to know that so we decided, therefore, then that 
we have to put our moneys into it, and so the county, Prince 
George's County and Montgomery County, decided that we would 
contribute I think it was $400,000, and that we will find a 
place on the order where young people who are at risk could 
come and interface with the professionals, the health 
providers, the social workers, the school teachers, the folks 
in the neighborhood who can assist them with the loneliness and 
isolation and help them resist the urge to join these kinds of 
organizations.
    Because we have found that young people do not wake up 1 
day and decide that they want to join a gang. What they focus 
on is some kind of family structure, some kind of good 
relationship, something that makes them feel secure, and we 
realize then that the security has to come from the collective 
community through our Crossroads initiative.
    And we call it the Crossroads because it is right on the 
crossroads of Prince George's County and Montgomery County. The 
Crossroad opening was just amazing. Congressman Van Hollen, you 
were there. We had all of the social workers and all of the 
other people that were involved, but more importantly, we had 
ex gang members who were touched by folks when they testified 
as to the significance and why they formed gangs and why they 
joined gangs, and they were really excited to have the 
recognition from the larger society.
    We realize then that recognition and the self-work of 
individuals were so important. I say that to say that, 
Congressman Van Hollen, we called you because we recognized 
that we cannot do it on the local level alone, and you were the 
face of the Federal intervention, the Federal help, the Federal 
partner that we must have, and so I think that is the message 
today, that prevention can make a huge difference. it is the 
key. The local communities must put resources into gang 
prevention. It must be holistic, and that the Federal partners 
must be a part of this solution.
    We will do our part in terms of law enforcement, but we 
really need you on the suppression side, and we think that 
together we can really turn this thing around and put many of 
our young people on the right track, give them the kind of 
choices that they need to be productive citizens and move in 
the right direction.
    So, again, I just want to thank you, Mr. Chairman, and the 
members of this committee for allowing us to be here today and 
to talk about how important this activity is and how important 
the work of your committee is and how important the Federal 
partner is in helping us deal with this problem.
    Thank you very much.
    [The prepared statement of Mr. Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T0329.004
    
    [GRAPHIC] [TIFF OMITTED] T0329.005
    
    [GRAPHIC] [TIFF OMITTED] T0329.006
    
    [GRAPHIC] [TIFF OMITTED] T0329.007
    
    [GRAPHIC] [TIFF OMITTED] T0329.008
    
    [GRAPHIC] [TIFF OMITTED] T0329.009
    
    Chairman Tom Davis. Thank you very much.
    Chairman Leventhal, thank you for being with us today.

                 STATEMENT OF GEORGE LEVENTHAL

    Mr. Leventhal. Chairman Davis thank you so much for 
inviting us. Congressman Van Hollen, we appreciate your 
effective and responsive leadership. Our colleagues and 
friends, Mr. Cummings and Mr. Ruppersberger from Maryland, 
welcome to Montgomery County. It's great to have you here, and 
thank you for your work to solve our gang problems here.
    And, Mr. Wolf, a special thanks to you for your work on the 
Appropriations Committee. You see here on this panel 
cooperation between Prince George's and Montgomery Counties and 
the description of the Crossroads Youth Opportunity Center, but 
we also absolutely agree with your comments and Chairman Davis' 
comments that we cannot solve this problem on one side or the 
other of the Potomac, and we're very, very grateful to you for 
your assistance and look forward to continuing to work with 
you.
    Gang violence is increasing throughout the metropolitan 
Washington area. In Montgomery County we are trying to combat 
this increase with a comprehensive and regional approach. There 
are between 20 and 28 active gangs in Montgomery County, and 
680 to 930 persons identified as gant members. The numbers 
change as gangs come and go, arrests are made, and as people 
move in and out of the area often to other jurisdictions 
represented here.
    Primarily gang members are young people between the ages of 
15 and 21. I agree with County Executive Johnson that the 
prevention and early intervention are a critical approach to 
this problem, and we have taken this approach as Mr. Johnson 
has outlines.
    When young people cannot find stability, support, 
friendship and activities in their own homes, schools, and 
communities, they become vulnerable to the invitations of gang 
recruiters, and the other side of the equation is, of course, 
effective law enforcement and prosecution. Often gangs are held 
together by a small number of older gang members. When these 
individuals are taken off of the street, many times the gang 
will dissolve.
    The number of gang members being held in our local jails 
and being supervised in community programs is also increasing, 
and this brings challenges to our corrections department in 
terms of housing inmates and providing effective rehabilitation 
services.
    We need help from the Congress. We're investing significant 
resources of our own. We were very, very grateful to the 
assistance we received from the Congress in fiscal 2006, and we 
are requesting additional help in fiscal 2007. We're requesting 
$1.4 million for after school programs. Keeping our young 
people active and engaged during after school hours is 
important not only for preventing gang activity, but for many 
other problem behaviors, including drug use, teen pregnancy, 
and the increasing problem of childhood obesity.
    The county council has expanded our Rec Extra Program in 
this year's budget under the leadership of Council Vice 
President Marilyn Praisner, who is here, so that we have after 
school programs in every middle school in Montgomery County.
    We responded to request from Blair High School Students to 
make sure its sports academy program will continue, and we've 
expanded this to Einstein High School as well.
    We are partnering with the public schools and with 
nonprofit and faith based organizations to make sure that after 
school programs provide not only recreational opportunities but 
also programs to improve young people's academic performance.
    We're asking for 1.4 million, and we expect to receive the 
following benefits in terms of a Federal appropriation: an 
increase in school attendance and student participation in 
school activities; reduction in suspensions and disciplinary 
actions; improvement in school completion; reduction in illegal 
and risky behavior; improved sense of safety and belonging on 
the part of young people; increased sense of competence and 
confidence; and reduction in disproportionate minority 
representation in the juvenile justice and adult correctional 
systems.
    We're also asking for $260,000 for a street outreach 
network composed of former gang members. We're asking for 
$485,900 to continue funding our centralized gang investigation 
unit; $1 million to help us expand our efforts to provide high 
school wellness centers in high risk schools which would create 
two new centers with targeted services to high risk youth who 
face challenges with poverty, youth, and gang violence, teen 
pregnancy and school failure.
    And finally, just over $3 million to help us expand the 
Youth Opportunity Center Program, which you heard Mr. Johnson 
describe, which we believe has been very successful and has 
been a great example of cooperation between Montgomery and 
Prince George's Counties.
    We are not only expecting to do this with Federal resources 
with county dollars. We have invested $5.8 million this year of 
county dollars in 22 different programs, nonprofit 
organizations and agencies, to address the multi-faceted 
problem of gang violence.
    Montgomery County is trying to make comprehensive and take 
a regional approach to the growing problem of gang activity. We 
need to continue to be partners. We need to continue to work 
with our neighboring county, Prince George's, and with our 
friends and colleagues from the State of Virginia.
    And thank you very, very much for allowing me to testify 
today.
    [The prepared statement of Mr. Leventhal follows:]

    [GRAPHIC] [TIFF OMITTED] T0329.010
    
    [GRAPHIC] [TIFF OMITTED] T0329.011
    
    Chairman Tom Davis. Thank you, Mr. Chairman.
    Chief King, thanks for being with us.

                     STATEMENT OF JOHN KING

    Asst. Chief King. Thank you, sir.
    I am John King, assistant chief of police, Montgomery 
County Department of Police.
    On behalf of our Chief of Police Tom Manger and the men and 
women of the Montgomery County Department of Police, I want to 
thank the committee. Clearly, from your opening comments it is 
really clear to us on the panel here that you have a good grasp 
of what is needed and what is being done with the resource, and 
we are very thankful to you for your continued support.
    It is an opportunity for us to discuss what we are doing in 
Montgomery County in response to the gang activity in our 
community. As with most criminal activity, gang crime does not 
adhere to any jurisdictional boundary. That is why it is 
important and our area law enforcement agencies have united to 
work together to address this issue.
    The Montgomery County Police have joined other regional 
agencies, including Maryland State Police, Prince George's 
County Police, Maryland National Capital Park Police to work 
with the ATF on a regional area gang enforcement unit, the RAGE 
unit. This unit enables each of the participating agencies not 
only to gather valuable criminal intelligence, but it also 
gives law enforcement a very effective operational arm.
    In our community of Montgomery County, we have seen gang 
membership and gang related crime increase at a steady rate 
over the last few years. What is more alarming to us, however, 
is that from November 2005 to May 2006, we have witnessed a 30 
percent increase in active gangs, from 20 to 28; a 30 percent 
increase in documented gang members, from 680 to 930; and a 
corresponding 30 percent increase in crime which we have 
attributed to gang members. Most of these crime increases have 
been in burglaries, robberies, and vandalisms.
    In the second quarter of 2006, 24 different gangs were 
involved in documented incidents in Montgomery County. Three of 
those 24 gangs accounted for 67 percent of all reported gang 
involved activities. Those gangs were identified as the Crips, 
the Bloods, and MS-13.
    The Crips were involved in 21 incidents, while both the 
Bloods and MS-13 were involved in 18 incidents each. No other 
gang was involved in more than five documented incidents.
    Our intelligence indicates that these Crips and Bloods are 
not formally associated with their popular namesakes in 
California, but the presence of these two groups highlight the 
importance of our actions on this issue.
    In addition to the enforcement efforts, Montgomery County 
Police work with other government and non-government agencies 
to prevent young people from becoming involved in gangs. Over 
the last year we have noted a significant increase in results 
for our educational presentations on gang prevention both from 
our schools and from our community groups.
    In addition to providing us education to our general 
population, we work to identify potentially at risk youths and 
their families and target them for focused prevention efforts.
    In our wing community, our gang task force officers and 
Choices, a nonprofit group, work together to help young people 
who are considering joining a gang. Officers identify these 
children and then involve them and their parents in the 
program. A plan is then developed with the assistance of the 
Montgomery County Social Service agencies to provide wrap-
around services to that family. These services continue for up 
to 6 months.
    These type of responses are consisting of the department's 
community policing philosophy wherein we identify problems and 
then work with multiple shareholders to work on solutions.
    It is important for us to note and thank the U.S. Congress 
for the support that you have given us on this important issue 
of gang activity. With a grant of $500,000, the Montgomery 
County Police Department is able to, in addition to other 
things, fund six full-time gang investigators who will be 
dedicated to conducting county-wide gang investigations from a 
centralized office. These gang investigators will also work 
closely with our county level partners who include Health and 
Human Services, the State's Attorney's Office, the public 
schools, our County Detention Center, and our community-based 
organizations, such as Identity, the Youth Crossroads 
Opportunity Center, and Choices.
    This Federal funding from Congress is very important, and 
we are thankful for the assistance. It is having a positive 
impact on our fight for the expansion against gang related 
activity.
    A special partner of ours in this battle is the Prince 
George's County Police Department. Chief High and his officers 
have taken a proactive role in facing this challenge head on, 
and we, the Montgomery County Police, are thankful for their 
efforts in working with us on a regional level, and I 
appreciate Captain Bill Lynn being next to us. I think it is 
very appropriate that we are sitting shoulder to shoulder here 
because that is really the way we are working to approach this 
regional issue.
    The Montgomery County Police Department will continue to be 
aggressive as we deal with this issue of gang activity. We will 
seek out new activities, initiatives not only to suppress gang 
criminal acts, but also to intervene and prevent young people 
from becoming active gang members.
    Thank you for your time.
    [The prepared statement of Assistant Chief King follows:]

    [GRAPHIC] [TIFF OMITTED] T0329.012
    
    [GRAPHIC] [TIFF OMITTED] T0329.013
    
    Chairman Tom Davis. Well, thank you very much as well.
    Captain Lynn, thanks for being with us.

                 STATEMENT OF CAPTAIN BILL LYNN

    Captain Lynn. Good afternoon, Chairman Davis and the 
distinguished members of the committee. I am going to be brief 
on behalf of Chief Melvin High, the Prince George's County 
Police Department.
    Chairman Davis and the Committee members' opening 
statements this morning pinpoint the important aspects of gang 
prevention, intervention and suppression. Also, you stressed 
the importance of funds to start and maintain our programs and 
to keep our efforts going in the long term.
    Gangs and their criminal enterprises pose an ever 
increasing concern for local, State, and Federal law 
enforcement agencies more than ever before. Today gangs and 
gang related violence leading to the erosion of the basic 
quality of life in many of our communities is widespread, more 
so even compared to the gangs of the 1920's that plagued many 
of our U.S. cities.
    As I stated during a hearing in July 14th of this year, the 
Prince George's County Police Department started a gang unit in 
2003, and shortly thereafter began the framework for what has 
resulted in the multi-agency task force, the Regional Area Gang 
Enforcement [RAGE].
    The task force is comprised of Prince George's County 
police officers, officers from Montgomery County, Howard 
County, Maryland State Police, Prince George's County Sheriff's 
Department, the Maryland National Park and Planning Police 
Department, the Hyattsville City Police Department, ATF, ICE, 
and the FBI.
    Prince George's County Gang Unit and the Task Force have 
seen tremendous success through the hard work and 
determination. Coupled with the various State's Attorneys 
Office and the U.S. Attorney's Office, we have a formidable 
front against the threat.
    As we are well aware, the most notable gang in our area is 
MS-13. This group has been active throughout the region, in 
D.C., Virginia, and Maryland. No community has escaped its 
influence, burden, and violence, and no one community is the 
central hub for its occupation.
    Fortunately, lawmakers like you, law enforcement and 
civilian agencies have come together on several fronts to cause 
the united effort to combat an organization that depletes the 
cultural and economic resources of our communities.
    Our law enforcement partnership has brought to bear the 
strong arm of the Federal Government against MS-13. In 2005, we 
opened a Federal RICO case against several cliques of MS-13. 
The success of this investigation has generated additional 
arrests and more intelligence on the reach and violence of the 
group.
    The first phase or trial begins today and is expected to 
last for several weeks. The success and importance and impact 
of this investigation are clear to everyone that is involved. 
It has also been demonstrated the need for additional personnel 
to pursue the countless avenues that MS-13 travels.
    However, it is not just MS-13 that we need to focus on. 
Whether it is in northern Virginia, the District of Columbia, 
Montgomery or Prince George's County, we are all seeing the 
emergence of young people associating themselves with violent 
groups known as Bloods and Crips. Again, these groups, born on 
the West Coast, influence our youth in many ways, including 
television, movies and music.
    Many of the things that draw youth to MS-13 also draw them 
into these terrible organizations. So our approach to 
combatting the Crips and Bloods must be similar to that of MS-
13, but we must have an action plan, and we cannot ignore these 
groups.
    In Prince George's County and Montgomery County, we have 
been fortunate that our county leaders recognize the importance 
of all aspects of combating gangs and created the bi-county 
gang task force. This endeavor brings the executive levels of 
government, law enforcement, and other government agencies, 
schools, and private organizations together to focus their 
resources, efforts, and expertise in fighting gangs.
    As we all well know, we cannot simply put handcuffs on MS-
13, the Crips or the Bloods and make the problem disappear. 
With the work of the Bi-county Gang Task Force, along with our 
efforts in law enforcement, we believe great strides have been 
taken to address these criminal enterprises. Each of the 
participating agencies, governmental and civilian, should be 
commended for their dedication to this effort. Certainly our 
strength is in our numbers, coordination, and determination.
    While MS-13 cliques in our regions do not demonstrate the 
level of sophistication and criminal activity equal to their 
counterparts in Los Angeles, it is not for lack of trying. This 
disorganization should not be seen as a weakness. Leadership 
from Los Angeles is known to visit our area and provide 
guidance, organization to the cliques and try to define their 
criminal activity. These same statements can be applied to the 
Crips and Bloods.
    The Prince George's County Gang Unit constantly evaluates 
the changing face of gang activity in our communities, as do 
many of our allied agencies. We constantly evaluate our 
approach to all issues generated by gangs. We not only 
concentrate on the traditional law enforcement approaches to 
the problem, but we maintain the open lines of communication 
and stay actively involved in our schools, along with 
counseling and intervention programs.
    The dismantlement of gang cliques via the RICO case and our 
gang unit operations have disrupted the organization and 
operating ability of local MS-13 cliques. Strong sentencing and 
the possibility of life sentences as well, the possibility of 
release have sent a dramatic message to gang members.
    But with the long lasting and multi-agency, multi-pronged 
approach to a complicated, deep rooted problem, if we don't 
have these, we will be revisiting some of the same issues over 
and over again. This is why I feel that Prince George's County 
and our allied regions will be successful in their war against 
gangs. We are putting police, schools, private and governmental 
service providers, local, State, and Federal Government 
together on the front lines of the battle.
    We recognize that MS-13, Bloods and Crips are active in our 
schools and recruit new members there. This is why the Prince 
George's County Gang Unit will increase its already steady 
involvement in schools by educating the educators. We will 
continue our efforts at training teachers, school 
administrators, certainly in the early signs of gang 
involvement. We will increase our efforts at making contact 
with at risk youth, their family, and before they become 
members of gangs.
    We will continue our efforts at staying current on gang 
activity and trends. We will maintain contacts in the 
networking throughout the anti-gang community, which is an 
extremely important part of the overall fight.
    Our collective efforts, whether they be local, State or 
Federal, are the key to controlling violent, disruptive gangs 
in our communities. Chief Bratton of the L.A. Police stated, 
``Gangs have made a gallant attempt at taking our streets from 
us. However, law enforcement as a whole, connected family will 
never allow this to happen.''
    Once again, I appreciate the opportunity to speak with you 
today and share not only the work of the Prince George's County 
Police Department, but the Bi-county Gang Task Force and our 
allied agencies that participate in the effort to combat gangs.
    Mr. Chairman and the members of the committee, again, thank 
you for your interest and support.
    [The prepared statement of Captain Lynn follows:]

    [GRAPHIC] [TIFF OMITTED] T0329.014
    
    [GRAPHIC] [TIFF OMITTED] T0329.015
    
    [GRAPHIC] [TIFF OMITTED] T0329.016
    
    [GRAPHIC] [TIFF OMITTED] T0329.017
    
    Chairman Tom Davis. Thank you very much.
    Let me ask. We have talked a lot about the prevention side 
and what we do to try to keep kids out of gangs and the like. 
What programs do you have for the non-school age population, 
including kids maybe who have dropped out of school or kids 18 
to 20, 22. Is there any strategy for that, because a lot of 
these gang members are not just young kids.
    Mr. Leventhal. Mr. Chairman, one of the programs that has 
been mentioned here is a nonprofit called Identity, Inc. It is 
one of the most successful nonprofits approaching this problem, 
and they have a special program for dropouts, which is 
primarily in Spanish. There is peer counseling. There is a lot 
of interaction, and they have had great success in getting 
people back into school and getting affected young people to 
get their GED and pursue successful careers.
    One of the most important things in dealing with the gang 
problem is that young people talk to peers, that they have 
someone that they can relate to and trust, and we have been 
very supportive of this group, Identity, Inc., which brings to 
bear this kind of peer counseling to help people turn away from 
that life style.
    Mr. Johnson. And, Mr. Chairman, we have what we call Men to 
Men Program, and I know that does not include the women, but it 
is a mentoring program. Actually last year we had about 5,000 
people and about 2,000 men hooked up, and the word went out. 
And many of the mothers brought their young sons who they felt 
were having issues and many of these were 16, 17, and 18 years 
old, and we hooked them up one on one with the person after we 
did background and all of those type of things, and they are a 
real strong mentoring making a huge difference for some of the 
young people.
    Chairman Tom Davis. Now, do I understand the Federal money 
correctly? Montgomery and Prince George's Counties get one 
allocation of Federal funding to combat gangs, but the State of 
Maryland receives a separate allocation of Federal funding 
which cannot be spent in Montgomery and Prince George's. Is 
anybody familiar with that?
    Captain Lynn. That is correct.
    Chairman Tom Davis. Is that true, Captain?
    Captain Lynn. That is correct, yes.
    Chairman Tom Davis. Do you know what the reason is for the 
delineation? Is there any thought of collapsing the two and 
coordinating?
    Captain Lynn. I do not know the answer to that question, 
no, sir.
    Mr. Ruppersberger. I will answer that question. A lot of 
the focus of the State is usually now in the prisons and 
attempting to deal with the issue of the gang issues and 
putting money into the development and working to deal with the 
issue in prison. Have you heard that or is that your 
understanding?
    Captain Lynn. I do understand that, yes, sir.
    Chairman Tom Davis. OK. So a lot of the State funding is 
going into that and is specifically targeted for that.
    What is the awareness of the general constituency about 
gang issues? I have done meetings on gangs. I think some of my 
colleagues have done that, and you get a certain level of 
people, particularly those who have kids in the schools, that 
get interested. But I go out and talk to other groups that 
mention the gangs, and it is just like you get these blank 
stares.
    What is the general level that you are seeing of awareness 
among the public on these issues? Does anybody want to take it? 
Let me ask the politicians, I mean.
    Mr. Johnson. Well, I think you hit the nail on the head. If 
there is a crime, a big crime, everybody is aware for a short 
time, and then it seems like it just kind of goes out the 
window, and that is the reason why I talked to Congressman Wolf 
about his effort, because I think that it just has to be 
sustained.
    I do not want to change the topic, but people do not want 
to recognize that they live among gang members or in a 
community where gangs exist. They want to say, well, my 
neighborhood does not have those kinds of things, and I think 
that is probably some of the liability.
    Mr. Leventhal. I have certainly been interacting with a lot 
of my constituents over the last several weeks, and there is an 
awareness that there is a gang problem. I do not think there is 
enough awareness that county government and the two counties 
together are making really to address the gang problem. I think 
our State's Attorney's Office has had a particularly effective 
approach, and that has been perhaps a little bit 
mischaracterized in the course of this election season.
    But certainly voters are aware of it. I think it is 
important that we try to misspell stereotyping and 
misperceptions. The fact that someone may come from an 
immigrant family does not mean that they are responsible for a 
gang problem, and so we have to be clear where there are 
problems we are working on them. We are working on them in the 
ways we have described, but we should not use the gang issue as 
the way of evoking, you know, fear just for its own sake.
    Chairman Tom Davis. Thank you.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    Let me thank all of you for your testimony. I just want to 
emphasize the point that Mr. Leventhal just made as well, which 
is that no matter what community you come from, you can be 
susceptible to gang activity.
    Obviously if you are a recent immigrant, in some cases, 
given the whole range of factors and pressures you are facing, 
sometimes people prey on people who are in that position, and 
clearly, there have been successful recruiting efforts, and 
that is why we are here, to try and make sure that we address 
those issues and deal with them.
    I want to thank you, Jack Johnson, again. You sort of had 
both hats. If you could just elaborate a little more. You were 
a State's Attorney and you dealt with the criminal aspect of 
this, and you understand that is an important focus, but also, 
as county executive you have the hat on where you deal with 
this on a comprehensive manner.
    If you and Mr. Leventhal could just talk about how this has 
also helped bring the counties together, it seems to me that we 
need to develop a greater cooperative relationship between the 
counties on a whole host of issues. I think we are moving in 
the right direction, and how this has helped create a better 
working relationship between law enforcement and our social 
service agencies.
    Mr. Johnson. Well, let me say, first of all, that in 1994, 
when I became the State's Attorney, I probably did not know 
that there was a gang problem until there was a murder coming 
out of one of our high schools, and there was a small gang. 
There was a guy who was the head of the gang, and I think many 
of the students knew it. He ordered one of the young ladies 
killed, and she was killed by a knife, and it became a huge 
public issue.
    And I think that was the first real awareness in our county 
in 1994 that there were gangs in our county and that we had to 
really begin to address it.
    But as I indicated, suppression, and the law enforcement 
authorities were to handle that, and that is why I want to give 
Doug Duncan, county executive for Montgomery County, a lot of 
credit, because he called me, and he tells the story of a gang 
fight that started in northern Virginia, came through Prince 
George's County, and someone ended up dying in Montgomery 
County.
    So you had three jurisdictions involved in that one act, 
and he said we have to come together. The lines where we have 
some of the activities are right here on the border, but we 
just cannot do it through prosecution alone, and that we need 
to figure out how we can use the prevention side, and how we 
can bring all of the community involved.
    And I think that was the recognition and the coming 
together. And of course, as I indicated, we called you because 
we wanted the Federal authorities to be involved, and so that 
is where we are now.
    We think that with the two strong law enforcement 
authorities that spoke today in terms of what we are doing, the 
Federal people are very much involved in these prosecutions, 
and they are helping us. I think we have the approach that can 
really pay tremendous dividends, and we want to thank the 
chairman for all that you are doing in terms of the moneys.
    We have a budget. I think we have put a really great budget 
together, and we are going to spend the money mostly on 
prevention. Many of the prosecution moneys are coming from our 
own pockets in terms of what we allocate through the budgetary 
process.
    Mr. Leventhal. Congressman Van Hollen, we have had a lot of 
discussion in our last two county budgets about the gang 
initiative, and in the previous county budget when the proposal 
was made that we should fund the Crossroads Youth Opportunity 
Center, that funding came through the committee that I chair, 
the County Council's Health and Human Services Committee, and 
we asked some skeptical questions of Director Colvin, who will 
be speaking later, as to what really would be Prince George's 
County's commitment to this project since we knew that it was 
going to be located right on the border and that many of the 
unfortunate incidents of violence had occurred on the other 
side of the county line in some of the neighborhoods in and 
around Langley park.
    And what has occurred is that Prince George's County 
absolutely has come through, that the costs have been very 
fairly allocated, and that all of our questions have been 
answered satisfactorily, and so in the second year we came 
forward and funded all of the requests because we were 
confident that it was moving ahead successfully as a bi-county 
cooperation, and we have been very pleased with everything we 
have heard from County Executive Duncan, from Chief Manger, 
from our State's Attorney Doug Gansler and from Director Colvin 
about the cooperation with their counterparts on the Prince 
George's County side.
    And in particular, I have heard the success that County 
Executive Johnson's administration has had in incorporating the 
input of the Latino community in the planning and in the 
outreach.
    Thank you.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you.
    Mr. Wolf.
    Mr. Wolf. Thanks, Mr. Chairman.
    In northern Virginia, the task force that we have set up 
goes from Arlington, Alexandria, Fairfax, Manassas, Manassas 
Park, Loudoun, Prince William, Fauquier, and out into the 
Shenandoah Valley, and down actually into Harrisonburg.
    And I wonder if you have or if your area is broad enough 
because last week I was up in Pennsylvania, up in Bucks County, 
and their biggest problem is coming out of Trenton, coming out 
of Allentown, and coming out of north Philadelphia, and I 
wondered should Baltimore County not be part of your effort in 
the other counties so that it is a broader jurisdiction.
    Because the problems we were having when they would leave 
Alexandria and go to Arlington, leave Arlington and go to 
Fairfax, but we felt we had to broaden it out so that we had 
the whole area.
    Now, each county has its own education and intervention 
program. They are buying a machine whereby they will take the 
tatoos off and do different things like that. Different school 
systems are teaching the teachers colors, signs, but from the 
law enforcement, the task force goes from actually the Potomac 
River in Alexandria and Arlington down into Harrisonburg, and 
normally those communities never talk to each other.
    Should your area be broader? Should this task force be a 
little broader than it is?
    Asst. Chief King. Mr. Wolf, that is an excellent 
observation. I think what we have seen here in our area is that 
we initially get more return on investment for focusing it in 
the areas of our joint counties here, but we also have this 
member of the task force, the Maryland State Police, that we 
can expand up to Baltimore County when need be.
    Most of our data indicates that our region here, the 
members that are active when they are going through this area, 
do not necessarily come up. A smaller percentage do that 
actually come across the river from Virginia, and they are sort 
of localized this way.
    But we do have the State Police involved to give us that 
expansion capabilities and the Federal partners so that we can 
go across the river.
    Mr. Wolf. The other question, I heard you and I am sure the 
answer is yes, but in ours, we have FBI, DEA, ATF, and Marshal 
Service, all assigned. Are all four working with your task 
force?
    Captain Lynn. We have ATF, ICE, and the FBI as current 
members of our task force.
    Mr. Wolf. Well, wouldn't you want to ask DEA and ATF to be 
part of that?
    Captain Lynn. ATF is a member. They are responsible----
    Mr. Wolf. Marshal Service?
    Captain Lynn. Marshal Service has been in conjunction with 
us, yes. We have not seen a whole lot of involvement in drugs 
traversing back and forth with MS-13. We have shared 
information with DEA. We do not have them as a signed on member 
of the task force, but we certainly do work in conjunction with 
them.
    Mr. Wolf. OK. Well, I guess that is one of the things. In 
our area you do have very much drug involvement, and the 
cooperation of the four, you know, ATF, a lot of it is gun 
activity, and then you have a lot of drugs. You have the 
combination particularly.
    You have not seen yet, but I think you may very well see--
well, let me ask you: have you seen methamphetamine here yet?
    I mean, it is coming up the Shenandoah Valley, coming in, 
and so the combination of these groups getting involved, and 
you know, it is up to you all, but if you would like to, we 
would certainly intercede. They all come before my committee, 
but I think that DEA would offer you a unique approach, that 
they could be very, very helpful.
    But I will wait to hear from Chris and wait to hear from 
you.
    The other question is would it be a good idea, or maybe you 
already do it, that your people sit down with our task force 
and with the District of Columbia on a monthly basis. And I am 
a main cog, but I mean the law enforcement is the law 
enforcement to exchange. Is that taking place on a regular, 
every first Tuesday of every month that all of the task forces 
get together or is it on an ad hoc basis?
    Captain Lynn. We have not set up that every Tuesday, every 
Wednesday type of schedule that you are referring to, but the 
advantage that we have now is the Northern Virginia Gang Task 
Force knows that we exist, vice versa. We all know everybody's 
home telephone numbers. The exchange of information is 
tremendous back and forth. Everybody knows that if you need 
some information, you're going to get it here. Here is where 
you go to, and again, the exchange of information has just been 
tremendous between all of the groups.
    Mr. Wolf. So you are dealing with the northern Virginia and 
the District in exchanging information?
    Captain Lynn. Absolutely.
    Mr. Wolf. Do you ever meet?
    Captain Lynn. Yes, sir. Yes, sir.
    Mr. Wolf. OK. Last, you might want to look at Boys Clubs 
and Girls Clubs and Boy Scouts and Girl Scouts and different 
groups like World Vision and some of those other groups. We are 
trying to bring many as a nonprofit for after school programs, 
for soccer programs, Boys Clubs, Girls Clubs.
    Are they active? How many Boys Clubs and Girls Clubs do you 
have?
    Mr. Leventhal. We do have very active Boys Clubs and Girls 
Clubs in Montgomery County, and the County Council has 
supported a number of their programs, and we do interact 
closely with them on the after school programs as well.
    Mr. Wolf. OK. Well, thank you very much. Thank you for your 
service, too. I appreciate it.
    Mr. Leventhal. Thank you for your support.
    Chairman Tom Davis. Thank you.
    Mr. Cummings.
    Mr. Cummings. I want to pick up on some questions that 
Congressman Wolf was asking, and as I listened to you all, I 
did not hear the word ``drugs.'' You almost said it, Captain, 
until the questions were just asked.
    It seems to me that drugs can have a phenomenal impact on 
keeping people in an organization, getting them in the 
organization, and for a lot of the violent activity that 
happens. In our subcommittee, we deal with drugs. In the 
subcommittee that I rank on, I mean, we deal with this subject 
every day.
    And I am just wondering how much of an impact does drugs 
have on these gangs and their involvement from what you have 
seen.
    Mr. Leventhal. If I may.
    Mr. Cummings. Yes.
    Mr. Leventhal. For MS-13, we do not see, at least in our 
region in Prince George's County, we do not see a tremendous 
involvement in the distribution of narcotics.
    Mr. Cummings. OK.
    Mr. Leventhal. Now, we certainly see narcotics use, whether 
it be cocaine or marijuana. Now, a differing factor between MS-
13 and the Bloods or the Crips are drugs, are narcotics, and a 
differing factor between MS-13 and the Bloods and the Crips is 
Bloods and Crips are for profit organizations to a great 
extent. MS-13 is not. A lot of times for a lack of a lengthy 
description, MS-13 is more of a violence driven type of 
organization where the Bloods and the Crips certainly do not 
step away from violence, but there is that for profit type of 
thought or thinking in what they are doing, and certainly part 
of that is the distribution of narcotics.
    Mr. Cummings. You know, it just seems to me, like I said, 
when you put drugs in the midst of something, you get a whole 
other set of dynamics going on, and I was just curious about 
that.
    Mr. Johnson, you and Mr. Leventhal have talked about 
organizations, and Mr. Wolf, helping out with these young 
people and Congressman Wolf also mentioned the Girls and Boys 
Clubs. I am just thinking about the people in my district. I am 
a former Cub Scout and Boy Scout, and a lot of the young people 
in my district, they look at Cub Scouts and Boy Scouts as it is 
just not something that they are that interested in. I means 
that is just reality. I mean if you start real little, like 6, 
7 years old, but after they get about 10 years old and they see 
what is going on on the streets and they get involved in a 
gang, it is almost like probably one of the most negative times 
you could do is being a part of the Scouts. I am just telling 
you.
    And I am just wondering. What we have seen though is the 
faith based organizations getting a hold of these kids, 
creating a very positive peer group, getting a critical mass of 
people, showing that it is OK not to commit crime. It is OK to 
do things the right way. It is OK to be smart in school. So 
then you get this group, this critical mass, and the very peer 
pressure that some of you all talked about, it flows back and 
forth.
    I mean, what have you found? You have talked----
    Mr. Johnson. Well, Congressman Cummings, I was the chairman 
of the Two Rivers District for the Boy Scouts of America for 4 
years, and the Two Rivers sits between the Patuxent and the 
Potomac. So I had pretty much all of Prince George's County.
    The one conclusion that I can make is that the prosecutor 
for 8 years, now my Boy Scout years were before that. I never 
prosecuted a Boy Scout in 8 years. So to the extent that they 
get involved in Cub Scouts and stay there, it is just a 
phenomenal program. It just really works.
    Mr. Cummings. I do not want you to think I am knocking it.
    Mr. Johnson. No, I know that.
    Mr. Cummings. I am on the board of the Boy Scouts, too.
    Mr. Johnson. Yes, and I say that to say that it is harder 
to get the churches to have the kind of after school programs, 
the consistency that we need. It is something that we have to 
work at.
    Mr. Cummings. All right.
    Mr. Leventhal. I guess I would just comment. I want to be 
very careful because we are a successful economy, and we 
attract people from around the world and we have a highly 
motivated and successful immigrant community that brings a lot 
of skill and ability here, and we also do see among some 
elements of the immigrant community this gang phenomenon 
growing, and so I think the challenge for nonprofit groups is 
to find culturally competent ways to reach out and incorporate 
the growth communities into their activity.
    I am not familiar with efforts that Boy Scouts of America 
may be making in that regard. It is a challenge for all of us 
in government. It is a challenge for all of us in the nonprofit 
sector. How do you reach the growth communities in ways that 
the recipient of the services is going to accept the services, 
and you have to be culturally competent. You have to have 
language skills. You have to some extent appear cool and like 
an activity that would be fun and interesting to be involved 
in.
    So that is a contemporary challenge that all service 
providers are facing.
    Mr. Cummings. Thank you.
    Mr. Johnson. Mr. Chairman, may I be excused? I have to 
leave.
    Chairman Tom Davis. Sure.
    Also, Mr. Cummings, also we do some things that are maybe 
not formally the Boy Scouts, but there are church-based 
activities in Montgomery County, and they are mainly driven by 
the community they are in, but some of them are also very 
successful.
    We also have the Police Activities League, who provides 
another venue, and it is really socially acceptable and cool to 
be doing that after school.
    And then Mr. Leventhal has mentioned the after school 
programs, where we have formal after school programs so that we 
keep the kids there and provide that instruction, and when Mr. 
Wolf mentioned about the recent immigrant population, using the 
game of soccer to reach out. We do a Kids with Cops Program 
where we have officers do soccer clinics, and it really breaks 
down that barrier and gives them a goal, something to do after 
schools and stuff. So we do a lot of pieces and try to find a 
lot of bites out of the elephant, if you will.
    Chairman Tom Davis. Thank you.
    Mr. Ruppersberger.
    Mr. Ruppersberger. Sure. Well, first, Mr. Chairman, I want 
to thank you for having this hearing, and, Chris Van Hollen, I 
want to thank you for hosting this hearing.
    Clearly, we have identified we have a gang problem. Sitting 
here listening to the testimony and the statements of my 
colleagues, I think we have a tremendous opportunity to make a 
difference, and one of the reasons is because of the regional 
approach that we are taking.
    I was a former prosecutor, former Baltimore County 
executive, and one of the things that I saw as it related to 
law enforcement is that crime has no geographical boundaries, 
and if law enforcement gets off the turf and works together, 
you can make a difference, and I think that is really starting 
to happen: this hearing and what we are hearing about the 
relationship between Montgomery and Prince George's.
    We had a hearing in Virginia, and I was very impressed with 
what my colleagues have been doing, Congressman Wolf and Davis 
and Moran, and how they have come together. I was impressed 
with some of the issues that we have talked about here today, 
but also the legislative side, giving the tools to prosecutors 
to deal with the issue of suppression.
    So I think it really bodes well that we are coming together 
as a region, but we have to step it up a little bit more, I 
think, in the Baltimore region, and Elijah Cummings and I 
represent the Baltimore region. So you have the players here 
from a Federal level who work very closely at the local level, 
I think, to start pulling this together.
    I think Congressman Wolf talked about New Jersey and areas 
like that and Philadelphia, which probably Baltimore is going 
to have to reach north because, again, crime has no 
geographical boundaries, and I think though that we are on the 
right track.
    Now, County Executive Johnson talked about the holistic 
approach, and I think that we need to address this problem in 
different ways, and those priorities are suppression. Clearly, 
we have to deal with the issue of suppression and what we are 
going to do, and then we even have problems beyond that once 
these members go into prisons, and that is causing a big 
problem also.
    But I think the prevention is a very important approach. 
Congressman Davis and I went to El Salvador, and we were at the 
heart really of MS-13, and over and over the message was that 
the gang members come from poverty. This is their only family; 
this is their family.
    And so we have to address that issue, and then when gang 
members want to get out of gangs they cannot, and how do we 
deal with that? These are issues that we have to deal with.
    So with that statement about where we are, I think what I 
would like to ask you three is that from a Federal level where 
would you like to see our priorities from a Federal level, 
helping you in coordination.
    I think the coordination, and Congressman Wolf addressed 
it, is extremely important. We are fighting terror, and I think 
one of the most effective ways we are fighting terror is in the 
Federal Government we have the Joint Terrorism Task Force. We 
have Federal, State and local. You have those jurisdictions. 
You have FBI; you have DEA; you have CIA, and it is all pulling 
together as a team.
    And I think we can help in that regard, or do you need more 
resources in the area of different types of suppression tools? 
And I would like to hear your thoughts on that. Or is it more 
in the prevention area? Where do you think we, through a 
Federal level, this body here? And you do have the players 
here.
    And I think it is going to bode well eventually to pull the 
team together, to communicate, and we will be able to be 
effective. So if you can tell me where you think your 
priorities are and what you would like us to do from a Federal 
level, whether it is funding, coordination, whatever.
    Mr. Leventhal. Sure. Well, this hearing is very helpful, 
and in my testimony I have outlined some requests that we have 
made and with continuing support from the Congress, we hope we 
can leverage the county money that we are spending. So 
certainly we need funds. Certainly we appreciate that this 
committee has brought different jurisdictions together to share 
experiences.
    Mr. Ruppersberger. But funds where?
    Mr. Leventhal. Well, my testimony outlines both.
    Mr. Ruppersberger. Yes, I heard your testimony.
    Mr. Leventhal. Yes. So health care, law enforcement 
prevention, some of these intervention programs, these are the 
approaches that we hope are going to bear fruit, and we have 
benchmarks. We have measurements that we are going to be 
reporting on the data as to the success we are achieving in 
these young people's lives.
    Mr. Ruppersberger. Is there anything that we are not doing 
that you would like to see us do on the Federal level? I should 
ask the two members of law enforcement.
    Asst. Chief King. First, I do want to compliment you. I 
think this committee is really on the mark here. You guys have 
a good grasp of the issues and have been very supportive. That 
continued support is critical as we continue to expand the 
partnership, and just to let you know, we do work with Terry 
Sheridan and Bill McMahon, the Chiefs of Baltimore County and 
Howard County. It is just the focus right now is a little bit 
south fortunately, but we do have regular communication.
    Mr. Ruppersberger. Hartford County? Do you have Hartford or 
Anne Arundel?
    Asst. Chief King. We do not with Hartford County.
    Mr. Ruppersberger. We will deal with that.
    Asst. Chief King. OK, but I think that we can expand. We 
have regular communication with them, although it may be ad 
hoc. We have valuable exchange of information with them, even 
though they may not be actively involved with us.
    In my police hat, I always like to see us as the tip of the 
spear, but we just don't see it as the enforcement effort. We 
know we usually are the first contact with them, but then we 
share with our other partners, and so we realize too under the 
community policing clause there's a lot of aspects to it, but 
we usually come in contact with them for better or worse 
usually first.
    I think the coordination piece that you speak of is 
extremely important. The Joint Terrorism Task Force, if you 
were to apply that same type of philosophy to gangs I think 
would be very beneficial. You know, we find gang members. The 
RAGE Unit has traveled out to the West Coast and done some 
training out there and attended conventions and has gone and 
ridden with the border patrol out there and LAPD and San Diego 
Police Department, and we have run into gang members that were 
on the East Coast and we've run into them out on the West 
Coast.
    So you know, they travel just as much and probably a great 
deal more than we do, and that information exchange is going to 
be the key to dealing with this problem.
    We have a great deal of local lines of communications now 
just simply because of the task forces, whether they be 
northern Virginia or whether they be RAGE task force that are 
being set up. We now know who to call in one particular place 
or another to obtain some information, but certainly could 
there be more coordination? Could there be funds to facilitate 
that? Yes, and I think if that was to occur, then our efforts 
were going to increase tenfold.
    From a law enforcement perspective and even to reduce it 
down if you're talking about items that we need that we lack, 
there certainly is. I mean, there are simple things like 
digital cameras and the quality digital cameras that we need 
out on the street because to get that intelligence information 
to be able to put it into a data base, whether it be GangNet, 
whether it be something that the FBI has in their national data 
base or even at a local level that we're maintaining simply on 
a desktop. If we don't have the equipment to do that, then 
we're fighting an uphill battle.
    So you reduce it down to even those smaller items like 
that, the funding is important to take care of those things, 
whether it be something in a joint gang task force or something 
if you're talking about $300 or $400 for a quality digital 
camera across the spectrum if the phones are needed.
    Chairman Tom Davis. OK. Thank you all very much. It has 
been a very, very helpful hearing. We will take about a 2-
minute recess as we move our next panel forward.
    Thank you.
    [Recess.]
    Chairman Tom Davis. Our goal is to try to get out of here 
in the next 45 minutes if we can just because Members have 
things. So I would like to swear in our first panel if I could.
    Carolyn Colvin, the director of the Department of Health 
and Human Services for Montgomery County; Warden Robert Green 
from the Montgomery County Correctional Facility; Mike Butler, 
gang prevention coordinator, Prince George's County; Luis 
Cardona, the youth violence prevention coordinator, Montgomery 
County; and Daniel Arretche, the director, Crossroads Youth 
Opportunity Center; Richard Brown, the small business owner.
    It is our policy to swear you in.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you. Again, your entire statement 
is in the record, but if we could keep it 5 minutes a piece, I 
think we can move through this. Ms. Colvin, I will start with 
you and we will move right on down.
    Thank you very much for your patience in being here. It is 
very important to us.

 STATEMENTS OF CAROLYN COLVIN, DIRECTOR, DEPARTMENT OF HEALTH 
 AND HUMAN SERVICES, MONTGOMERY COUNTY; ROBERT GREEN, WARREN, 
 MONTGOMERY COUNTY CORRECTIONAL FACILITY; MICHAEL BUTLER, GANG 
 PREVENTION COORDINATOR, PRINCE GEORGE'S COUNTY; LUIS CARDONA, 
   YOUTH VIOLENCE PREVENTION COORDINATOR, MONTGOMERY COUNTY; 
DANIEL ARRETCHE, DIRECTOR, CROSSROADS YOUTH OPPORTUNITY CENTER; 
            AND RICHARD BROWN, SMALL BUSINESS OWNER

                  STATEMENT OF CAROLYN COLVIN

    Ms. Colvin. Good afternoon, Chairman Davis, Congressman Van 
Hollen, and members of the Government Reform Committee, Mayor 
Porter, and officials of the city of Takoma Park, our elected 
officials, and other partners in the area of youth violence 
prevention. We certainly want to thank you, Congressman Van 
Hollen and Chairman Wolf for supporting our efforts in this 
area.
    I'm Carolyn Colvin, director of the Montgomery County 
Department of Health and Human Services, and I am a co-chair 
along with Montgomery County Police Chief Thomas Manger of the 
Montgomery County's Gang Prevention Steering Committee.
    It is my privilege to speak to you today to share the 
strides that we have made in Montgomery County and Prince 
George's working together to address the gang issues. I am 
going to limit my comments because, as you have indicated, you 
have our written comments.
    I do want to say up front that we are most appreciative of 
the financial support that we have received from you, as well 
as the other assistance in our efforts in this respect. As was 
noted by president of the Council, Joyce Leventhal, the county 
has funded significant areas of this initiative, but we really 
rely on your continued support for us to be able to continue to 
do what we have been able to do. You may know that our current 
operations stem from the work of the Joint County Gang 
Prevention Task Force which was formed in 2004 by Montgomery 
County Executive Douglas Duncan, along with Jack Johnson, the 
county executive for Prince George's County.
    The task force provided guidance and support to individual 
task forces convened within each county and agreed upon a set 
of recommendations to further our shared interest in addressing 
gang violence and preventing youth involvement in gangs and 
criminal activity. In our effort to operationalize gang 
prevention, we followed guidance by the Office of Juvenile 
Justice and Delinquency Prevention and its comprehensive gang 
model and the model provided a multi-layered approach 
consistent with our approach to address prevention, 
intervention and suppression of gang activity.
    The Department of Health and Human Services offers a series 
of services and programs and interventions to address gang 
prevention and youth violence. The department has a long 
history of collaborative community-based partnerships in the 
delivery of prevention and intervention.
    The Youth Provider Council whose membership well represents 
public-private partnerships and service to youth is committed 
to implementing best practices, engaging in collaborative 
grants, seeking opportunities and coordinating services to 
specific community issues.
    The Youth Leadership Council's membership includes former 
gang members and young people at risk for gang membership and 
guides the development and implementation of community-based 
services. The Youth Leadership Council has participated in 
county and statewide forums and trainings in the schools and in 
the community where they have educated, youth, families, and 
practitioners about the consequences of joining gangs and how 
to effectively get out of gangs.
    In addition, the department funds linkages to learning 
programs which are programs which deliver comprehensive 
services to our youth and their families whose needs have been 
identified by school staff. We recently have a staff training 
for our linkages program, which is provided by Luis Cardona, 
who is your youth violence prevention coordinator, and that 
training has strengthened our provider's capacity to serve gang 
involved youth and families.
    The department is also actively partnering with the 
Department of Corrections and Rehabilitation, and we have 
partnerships with the Juvenile Justice System to provide 
assessment and diversion services, a swell as some transition 
services to help young people reenter the community 
successfully.
    We have attempted to centralize coordination of gang 
prevention efforts through the work of the country's Gang 
Prevention Steering Committee and through the extensive work of 
the county's youth violence prevention coordinator. The 
Steering Committee's membership includes directors of, in 
addition to the Police Department and the Montgomery County 
Department of Health and Human Services, we have 
representatives from the county Department of Corrections and 
Rehabilitation, Recreation and the Montgomery County Public 
Schools, as well as representatives of the county's executives 
African, American, Asian, and Latino Advisory Boards.
    The Steering Committee provides oversight at a high level 
of government and is responsible for implementation of the 
nearly 100 recommendations that came from the various task 
forces.
    We are expanding our efforts through the creation of the 
Street Outreach Network, which will place community resources 
directly in targeted areas, that will serve gang involved 
youth, youth at risk of joining gangs and their parents as 
well. Street outreach workers may be former gang members who 
have successfully left gang life behind and serve as community 
role models for youth.
    We will also be establishing high school wellness centers 
that will provide youth development, somatic and behavior 
health care, educational and familial supports and other 
outreach services. This effort is essential as it demonstrates 
a vital coordinated effort between the Department of Health and 
Human Services and Montgomery County Public Schools to better 
serve gang involved youth as well as those at risk of joining 
gangs.
    These centers will provide an intensive support environment 
for youth to resolve conflicts that would otherwise escalate 
without appropriate guidance.
    An important element of our gang prevention effort is to 
centralize coordination offered by the county's youth violence 
prevention coordinator. Luis Cardona, who is that individual, 
provides critical services through community education, 
participating in community forums, providing support to 
individual young people and families as they strive to exit 
gangs, serving as a mentor when needed, and maintaining liaison 
with relevant departments and agencies.
    And Luis will talk with you about some of his activities. 
He works very closely with his counterpart in Prince George's 
County, and they recently convened a regional meeting of gang 
prevention coordinators, including gang coordinators from 
northern Virginia to facilitate regional prevention 
intervention efforts.
    The cornerstone of Montgomery County's partnership with 
Prince George's County is the Crossroads Youth Opportunity 
Center, and again, we certainly thank you for your support of 
that initiative. This partnership fully implements a 
recommendation of the Joint County Task Force to offer a 
presence in the Takoma Park-Langley Park communities to combat 
youth violence.
    The youth participants have clearly identified this center 
as a neutral territory, free from the influence of gangs. The 
center offers a one stop shop in the community for direct 
service and/or referrals for behavior and somatic health care, 
employment training, job referrals, educational income 
supports, mentoring and other support services.
    Since its opening in May, the center has served almost 15--
I'm sorry--100----
    Chairman Tom Davis. Your entire statement is in the record.
    Ms. Colvin [continuing]. And 50 young people and their 
families.
    I want to mention that we awarded seven community 
mobilization grant awards, and those awards were youth led and 
youth planned. They determined what they thought they would 
like to see funding for, and those went to groups like the Gap 
Busters, the Mental Health Association, the Cambodian Duty 
Society, Identity, Boys and Girls Club, Montgomery County 
Tennis Foundation and Arts on the Block.
    So we have tried to use the nonprofits to actually provide 
services that will be meaningful and culturally sensitive.
    We have been very fortunate to have your support to 
continue funding the centralized gang unit here in the county, 
as well as the Youth Opportunity Center. Your leadership and 
foresight on this issue makes it possible for local 
jurisdictions to design solutions that will work long into the 
future. It gives communities the confidence that these supports 
will be present for the long term and not just the passing fan. 
Again, we thank you for your support and implore you to 
continue funding our regional activities.
    Thank you very much.
    [The prepared statement of Ms. Colvin follows:]

    [GRAPHIC] [TIFF OMITTED] T0329.018
    
    [GRAPHIC] [TIFF OMITTED] T0329.019
    
    [GRAPHIC] [TIFF OMITTED] T0329.020
    
    [GRAPHIC] [TIFF OMITTED] T0329.021
    
    [GRAPHIC] [TIFF OMITTED] T0329.022
    
    Chairman Tom Davis. Thank you very much.
    Warden Green, thank you.

                   STATEMENT OF ROBERT GREEN

    Mr. Green. Thank you, Chairman Davis, Congressman Van 
Hollen, distinguished members of this committee.
    You have my written testimony. I will not read through it. 
There are four vital points that I would like to bring forward.
    First, I would like to also recognize Counsel Brooke 
Bennett and Mindy Walker of your staff who spent 5 hours on the 
ground in our facility watching what we are doing, how we are 
doing it, talking to the people that are doing it, and also 
talking to the population that we are serving. So we greatly 
appreciate that.
    I am here representing Director Wallenstein, director of 
the Department of Correction and Rehabilitation in Montgomery 
County, the men and women of the department, our various 
division chiefs that run the pre-release center, our Pretrial 
Services Unit, Management Services Division, and our Intake and 
Assessment Facility.
    The four points I want to talk about is our role in this 
initiative, where we're at, and what we're doing in local 
corrections, some characteristics of the gang involved youth 
within our jurisdiction. I want to talk about a promising 
program of cognitive behavioral change that we utilize within 
the walls of the facility, 16 step program, moral recognition 
therapy, and I want to close hoping to dispel a little bit of 
this myth of Federal prison, State prisons and local 
corrections. That is something we need to understand and truly 
the numbers we are talking about.
    First and foremost, our role in this issue. I sit before 
you today with 103 validated gang members in the Montgomery 
County Department of Correction and Rehabilitation. Those gang 
members represent 38 nationally known or locally recognized 
regional gangs and street crews.
    My role, our department's role in this issue is twofold. 
It's law enforcement public safety and human development, 
keeping the public safe, my staff safe, the inmates that we are 
tasked to taking care of safe, but also making sure that when 
they leave our facilities, they are leaving better informed, 
more well prepared to face the challenges that they are dealing 
with when they walk out the door.
    To that end, we hold a couple of things to be very true 
within our facility. There are no gangs inside the walls of the 
Montgomery County correctional facility. The only gang is the 
staff that runs those facilities. We make that very clear at 
the front end. We do not let crime run rampant in the street 
within our correctional facility. We view it as a pertinent 
philosophy of Montgomery County that there is no more 
acceptance of crime within the walls of our jail than it is 
within the streets of our community, and those laws are 
applied.
    Graffiti, colors, recruiting, signs and symbols, none of 
that is tolerated. It's administratively handled, and it is 
also criminally handled with our State's Attorney's Office who 
has helped us successfully prosecute 38 cases since we opened 
in 2003. Of course, all of those not directly gang related, but 
again, prosecution of crime within a correctional facility. 
That is very vital to be able to do the work that needs to be 
done.
    So everyone you have talked to here today is involved in 
what we're doing: identity, Health and Human Services, the 
police. We're all working together collaboratively, and that 
does make a difference in Montgomery County. It is the people 
that are involved in how you are doing it, not necessarily how 
much money you throw at a problem as to how well you fix it.
    The characteristics of our gang involved youth. The 
primarily 17 to 22 years of age, very low functioning in the 
educational range, low reading levels, sixth, seventh, eighth 
grade reading levels at best. The population is getting 
younger. We are seeing 15, 16 year olds coming into our 
facility. We're seeing generational trends, brothers and 
sisters following their older siblings and following in the 
footsteps of fathers. Uniquely this youthful offender 
population 17 to 22, the average individual has one or more 
children left in the community when they are incarcerated, very 
much have a lack of impulse control both inside the facility 
and outside in the community, have severed family ties or at 
best severely damaged those family ties, have minimal to no 
work experience, and in context to your question, sir, they are 
heavy substance abuse users. We are finding that to be true, 
not necessarily the crime that brought them there, but heavy 
substance abuse users.
    What are we doing? Within the walls of our facility, we 
believe that we can impact every individual that comes in the 
door whether we have them for an hour, 30 days, 60 days or 90 
days. We can allow them to leave our system, our correctional 
system with something they did not have coming in the door, be 
it a resource, a card, some attachment to the community, and in 
Montgomery County we are fortunate to have such community 
resources that are incredible. We do not reinvent resources 
inside the walls of the facility. We bring those that are 
already providing it inside the walls. We network so that when 
Johnny is leaving our facility he is going to assist them that 
he already has a relationship with. Those things are vitally 
important.
    The MRT program, 16 step cognitive behavioral change 
program looks at structure, looks at highly skilled staff that 
help with issues of education, anger management, domestic 
violence. This is a structured, therapeutic community, and I 
have given you some pictures to show you in your mind what that 
unit looks like, but 64 people living inside those walls as a 
community 24-7 eat, drink, and sleep a structured program of 
change that has shown great promise. It has been part of what 
we have been doing since 1997 within our correctional system.
    One of the photos you have is a group of gang members 
graduating from a baby program. On that day 71 percent had 
children, but they very uniquely told me they were not very 
well aware of how to be fathers. So we are doing just a whole 
myriad of programs that would take me much longer than 5 
minutes to talk about.
    Last, I think at the national level we need to dispel a 
myth, a reality, whatever you want to refer to it as. You know, 
we read with great interest when we read the Bureau of Justice 
statistics that there are 713,000-plus people in America's 
local jails and regional jails, 1.4 million in State prisons 
and Federal prisons. We are funneling a lot of money that State 
and Federal direction.
    The reality is Dr. Alan Beck, Bureau of Justice Statistics, 
the number that local corrections will touch in and out the 
doors in a year, this year 12 million people. Local corrections 
is the deep end of the pool. Resources to provide these 
programs, to make a change, make a difference before they are 
going on into State and local systems; that number of 600,000 
coming in and out of State and Federal facilities pales to 12 
million people, and local corrections is very uniquely situated 
with our local community to make a difference in that area.
    Thank you.
    [The prepared statement of Mr. Green follows:]

    [GRAPHIC] [TIFF OMITTED] T0329.023
    
    [GRAPHIC] [TIFF OMITTED] T0329.024
    
    [GRAPHIC] [TIFF OMITTED] T0329.025
    
    [GRAPHIC] [TIFF OMITTED] T0329.026
    
    [GRAPHIC] [TIFF OMITTED] T0329.027
    
    [GRAPHIC] [TIFF OMITTED] T0329.028
    
    Chairman Tom Davis. Thank you very much.
    Mr. Butler.

                  STATEMENT OF MICHAEL BUTLER

    Mr. Butler. Good afternoon, Chairman Davis, members of the 
committee. I want to thank you for the opportunity to testify 
before you today.
    My name is Michael Butler. I am executive director, Office 
of Youth Strategy and Programs, Prince George's County.
    The Office of Youth Strategy and Programs functions to 
manage and control youth violence, gang activity in Prince 
George's County through effective implementation of prevention 
and intervention strategies working under one umbrella. Our 
goal is to implement a collaborative effort to better serve the 
needs of youth in Prince George's County, and we do this by 
mobilized communities, public, private, inter-faith 
communities, representatives, and youth in neighborhoods and 
schools.
    I am going to cut my testimony short and get to the meat of 
things. The Youth Opportunity Center is one of the initiatives 
that I oversee in the Office of Youth Strategies, and I want to 
thank the committee and Congressman Van Hollen for the $364,000 
that was given to the center, awarded to the center to make 
their Crossroads Youth Opportunity Centers work.
    In the center, it is the Joint Youth Center is we have 
different partners, and as the Department of Social Services 
comes to the center, where the Health Department, drug 
addiction, mental health, case management. We have work force 
services, and this talks about what you were talking about, 
Congressman Cummings: job readiness, job placement. We have 
legal services, the Public Defender's Office, criminal, civil, 
and legislative cases. We have positive youth development 
programs at the center, and we also have job training and 
replacement. The YMCA does that, and we have mental health 
services.
    In summary, we have served over 100 youth at the center and 
their families, but also, the Office of Youth Strategies and 
Programs is creating a youth directory for Prince George's 
County for all of the services and providers in Prince George's 
County. We are partnering with Maryland National Capital Park 
and Planning to create this directory to talk about all of the 
providers, the services that a parent or youth can have.
    We are going to put it online. It is going to be updated on 
a regular basis, and that is in the working stages.
    We have strategies where we have workshops for foster 
parents through Department of Social Services. We are telling 
them about the training and resources available for parents, 
foster parents, grandparents, kinship providers.
    I want to take a minute to thank Congressman Wolf. In one 
of your conferences that you had in Chantilly, VA last year, we 
got this parents' quick reference card, and we have given out 
several thousand of these quick reference cards to community 
groups, PTAs, civic associations to talk about the warning 
signs if their child is in a gang.
    This has been a very effective tool for parents that did 
not know their children was involved in gangs. So I want to 
thank you for your time.
    [The prepared statement of Mr. Butler follows:]

    [GRAPHIC] [TIFF OMITTED] T0329.029
    
    [GRAPHIC] [TIFF OMITTED] T0329.030
    
    [GRAPHIC] [TIFF OMITTED] T0329.031
    
    [GRAPHIC] [TIFF OMITTED] T0329.032
    
    [GRAPHIC] [TIFF OMITTED] T0329.033
    
    Chairman Tom Davis. Thank you very much.
    Mr. Cardona, I understand you are going to introduce our 
next two witnesses.
    Mr. Cardona. Oh, yes. Good afternoon. Members of the 
committee, Congressman Davis, Congressman Wolf, Congressman 
Chris Van Hollen, the Honorable Congressman Elijah Cummings, I 
just want to take this opportunity to introduce key resources 
that we have here in Montgomery County.
    In particular, Mr. Daniel Arretche who is the director of 
development and identity and a long time friend of mine, who I 
am very proud to have here at the table because most people 
that know me know that I have lost a lot of my friends to this 
craziness, and this is one of the brothers who have restyled it 
and said he wants to give back to the community. So I want to 
thank you for being here and standing by my side.
    Chairman Tom Davis. Mr. Arretche, thank you.

                  STATEMENT OF DANIEL ARRETCHE

    Mr. Arretche. Thank you.
    I apologize for my English, and it is the first time that I 
use glasses. So I have to recognize my age here. [Laughter.]
    Thank you for this invitation to participate in this 
hearing on gang activity in Montgomery and Prince George's 
County.
    I am the program director of identity, a nonprofit 
organization that is the lead agency of the Crossroads Youth 
and Community Center in Takoma Park.
    I would like to provide you with some information regarding 
the characteristics of the population we are serving at the 
center, as well as the summary of the work that has been 
realized up to date. Examples of actual incidents in the lives 
of our clients will hopefully illustrate for you the emotional 
and psychological situations confronted by many of these young 
people.
    Imagine the pain that a young 13 year old girl must be 
feeling who decides to be initiated in a gang knowing full well 
that she will be used sexually by the male members of that 
gang. This young girl finds herself in an abandoned room 
engaging in sexual relations with 10, 15 boys or young men.
    I always ask myself: what was the extent of her pain that 
led her to make this decision? Nothing justifies the actions of 
the perpetrators and they have to pay for their crime. However, 
my understanding what brings a young person to this point of 
that in his life, we will be able to effectively work in 
prevention or intervention.
    A young boy was just 6 years old when his parents abandoned 
him in his country. They fled a country that had been 
devastated by civil war and had left them in an extreme 
poverty. His caretaker resulted to be an abusive alcoholic and 
violent uncle. During 2 years no one heard his cries, cries so 
similar to those of the young girl in the abandoned room that 
he is now raping. Therefore, when he was only 8 years old, he 
escaped from his house, and in the street he found himself a 
new family.
    They told him over and over that they would protect him. He 
became part of the group of lost children with nothing, 
nothing, nothing to lose.
    Seven years later, now 15 years old and tired of so much 
violence all around him, he finally decided to do something 
different with his life. He made the tremendous, difficult 
decision to leave the grand life by coming to the United States 
in search of a safe home. He found his family here, but it was 
a changed family. He hardly knew his parents, and they had 
little time for him. The community he found himself in seemed 
to know nothing of the harshness, suffering, poverty and 
violence from which he had come, and no one ever asked about 
it.
    That same longing for a family that drove him into the 
street at the age of 8 drove him there again. Thirteen minutes 
of beating, punches, kicks, and once again, he was jumped into 
a street gang. Some time later he found himself in that 
abandoned room waiting his turn with a 13 year old girl and 
wondering what had happened to his dream of a new life.
    The perpetrators of crimes can be seen as victims, 
depending on the point of which you begin to relate the history 
of their life. Histories such as this and many that are even 
more complex are right at the center every day.
    The Youth Opportunity Center reflects the shining efforts 
of Montgomery county, Prince George's County, the Federal 
Government, and Infinity Center partners, the YMCA of Silver 
Spring, the Office of the Public Defender, Pride Youth 
Services, and the Montgomery County Hispanic Chamber of 
Commerce.
    The complexity of the cases that I have seen in the center 
can only be dealt with in this fashion. The center became 
operational in May of this year, and thus far it has served 119 
clients, youth and their family members who are impacted by 
gang and gang violence. As of today, these clients have 
received 169 documented service that included case management, 
educational support, youth development and social skill 
building, mental health, legal services, job training and 
placement, and tutoring.
    In addition, a youth advisory board and a community 
advisory board met very early.
    We have also established an excellent working relationship 
with Warden Green and his established correctional facility. We 
are working together to provide youth who are to be released 
from that facility with early support to help them stay away 
from recidivism.
    But while we see these 119 clients as an example of early 
success, there remains much more to be done. In closing I want 
to thank everybody, and particularly to Congressman Chris Van 
Hollen, Kate Garvey, Luis Cardona, Mike Butler, Carolyn Colvin, 
Robert Green, and the staff and the team of the Youth 
Opportunity Center. I want to thank them because their 
unconditional support make the Youth Opportunity Center 
possible.
    Thank you.
    [The prepared statement of Mr. Arretche follows:]

    [GRAPHIC] [TIFF OMITTED] T0329.034
    
    [GRAPHIC] [TIFF OMITTED] T0329.035
    
    [GRAPHIC] [TIFF OMITTED] T0329.036
    
    [GRAPHIC] [TIFF OMITTED] T0329.037
    
    [GRAPHIC] [TIFF OMITTED] T0329.038
    
    [GRAPHIC] [TIFF OMITTED] T0329.039
    
    [GRAPHIC] [TIFF OMITTED] T0329.040
    
    Chairman Tom Davis. Excellent job. Thank you very much.
    Mr. Brown, thanks.

                   STATEMENT OF RICHARD BROWN

    Mr. Brown. I would first like to give an honor to my Lord 
and Savior, Jesus Christ that makes all things possible in my 
life.
    Good afternoon, Congressman--I am sorry----
    Chairman Tom Davis. Congressman is fine. You get us all 
that way.
    Mr. Brown [continuing]. Congressman Van Hollen and Chairman 
Tom Davis and the committee. I want to send a warm, heart felt 
thanks to all of you for allowing me to speak to you today. I 
am not only a concerned citizen of Montgomery County. I am also 
a reformed gangster, gang member, however you want to call it.
    I have lived the life that we are trying to prevent others 
from getting to or have already been in. I think the only way 
to reach these youth is to actually go inside or think like 
them, talk like them, you know, be able to reach them. You 
know, you have a lot of us out here. There are a lot of 
reformed gang members, a lot of reformed drug dealers, a lot of 
reformed people that are trying to give back to the community.
    Mr. Cummings, you talked about drugs. It exists. It is part 
of the gangs. I mean, this is reality. In order for them to 
thrive, in order for them to, you know, continue to go on, they 
use drugs. They sell drugs. That actually funds their 
organization.
    You know, I am a living proof of that. You know, I have 
done that. I have been there. I know how to go and talk to them 
and I know how to understand them. There are a lot of us out 
here that we have made mistakes in our lives. We have paid for 
our mistakes. We are trying to give back to make sure that our 
kids do not do what we have done.
    I mean, I have two beautiful, handsome sons. I just 
adopted, I took custody of a little girl because we did not 
want her to go into foster care. So I do not want my kids into 
any gangs, into being passed on as tokens for initiation, as 
far as my daughter is concerned, you know, being raped or 
anything like that.
    This society, the society that I live in right now, I live 
in Montgomery County. I moved into the suburbs because I said, 
oh, it is safer here to raise a family.
    No, it is not safe anywhere. The MS-13, the Crips, the 
Bloods, all of these gangs exist. They are here. They are going 
to continue to thrive. They are going to continue to plague our 
city. They are going to continue to plague America if we do not 
do anything about it.
    I feel that, you know, there are a lot of people out here 
that are trying to help out and give back to the community. 
Lou--that is who I call him--you know, he called me up and he 
said, ``Look, man. I heard you were trying to help out. I heard 
you were trying to do this.''
    I have been shunned. I started an organization in the 
Montgomery County Rec Center. I had a youth program that I 
tried to get the kids to come in if they had any problems. You 
know, there was no response because I did not have the 
resources.
    You know, basketball, little boys love to play basketball. 
Football, they love to play football. You know, in our 
organizations out here it costs money. A lot of these kids do 
not have the money. You know, a lot of these kids do not have 
the opportunity to do any sports activities, any extra 
curricular activities. I really feel that they do need 
resources in order to stay away from the gang activity. They 
need choices, and I would love to participate.
    I am going to grab hold of Lou's coattail, and hopefully he 
can drag me along and use me the best way that he possibly can. 
I really want to give back to my community. I do not want to 
see what happened to me happen to my kids. I do not want to 
live in an environment where I have to fear coming out of the 
door.
    That is where I grew up, because I did not have any 
choices. I come from Washington, DC. I was born and raised in 
the inner city. We did not have any choices. I come from a 
broken home. It is in my statement. I am not reading from my 
statement. I am reading from my heart right now.
    I am a concerned parent. I am a concerned citizen, and I am 
a reformed gang member, and I really, really want to give back.
    I am going to keep it real brief. I really, really thank 
you for allowing me to speak today.
    [The prepared statement of Mr. Brown follows:]

    [GRAPHIC] [TIFF OMITTED] T0329.041
    
    [GRAPHIC] [TIFF OMITTED] T0329.042
    
    Chairman Tom Davis. Well, thank you all very much for some 
very moving testimony. Mr. Wolf, I will start with you.
    Mr. Wolf. Thank you, Mr. Chairman.
    I apologize. I have to leave. I have a meeting downtown at 
the State Department, but I want to thank all of the panel, and 
I think the testimony demonstrates that there is a lot of hope. 
There is a lot of opportunity, and a lot of hope; a lot of 
problems, but a lot of hope, and I want to thank them.
    And I would just ask you, Warden Green if you could be in 
touch with Brooke from our subcommittee here with Mr. Davis. I 
would like to put you in touch with John Marshall, the director 
of the prison system in the State of Virginia to make sure. 
Based on what you said, I was very impressed because we have a 
major problem in the prisons in Virginia to make sure that 
everything that you are doing is being done in our prison.
    So if Brooke could arrange and Chairman Davis and I could 
do a letter then to make sure that everything you know our 
people know, to make sure that we are doing it, if we could do 
that.
    Mr. Green. I would be happy to do that, sir.
    Mr. Wolf. Good. Thank you.
    And, again, Chairman Davis, thanks for the hearing, and Mr. 
Van Hollen, thank you for inviting me.
    And with that I will just excuse myself. thank you very 
much.
    Chairman Tom Davis. Thank you.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    Let me also thank as he leaves Congressman Wolf, again, for 
all of his support and leadership on this issue and the 
chairman of the committee and my colleague, Elijah Cummings, 
has been a great friend, and we worked together on a lot of 
issues involving the State of Maryland and the country.
    Let me also thank all of the panelists. I mean, I thought 
your testimony was right on point from a lot of different 
perspectives, and as Congressman Wolf said, I do think it was 
inspirational and provides hope. It also outlined the 
challenges we have.
    And I want to thank Carolyn Colvin for being on the Joint 
Task Force from the start and your leadership there, and Warden 
Green, thank you as well, and to your director, Art 
Wollenstein, who has testified before the Congress as well, I 
want to thank you, and I am going to come back to you for a 
question as well.
    But thank you as well, Mr. Butler, for your efforts. Luis, 
I know you testified before our committee when we were on the 
Virginia side, and again, thank you for what you're doing to 
help so many young people in our community. You are also 
somebody who has taken through the pain of their personal 
experience and helped turn other people around, and I just want 
to thank you for your good work.
    And Mr. Arretche, you spoke beautifully, and you also 
really, I think, crystallized for us the kind of challenges 
with the personal stories you related, and it is those kind of 
really tragic but very real human situations that ultimately we 
are dealing with on a one-to-one basis. So thank you for what 
you and Identity are doing.
    Mr. Brown, thank you again for your testimony and your 
personal story of transformation because it does, I think, 
leave us all on a note that we can rally around together and 
address these important issues.
    We have talked a lot today about prevention, and I still 
think that has obviously got to be the front line. Every person 
you can prevent from getting into a gang is one person that we 
have saved and will have a productive life and escape many of 
the sorrows and sadness that comes with participating in a 
gang.
    We have talked about suppression as well, but let me talk 
about intervention a second because it has come up here. People 
who have been in gangs, we have all heard it before. He is here 
to get into a gang, then get out of the gang.
    So let me just talk to you, you know, ask you, Warden 
Green, and maybe you, Mr. Arretche. You have been dealing with 
people who have been involved in gang life, and Mr. Brown has a 
personal story. The number of people, Warden who are going into 
your correctional facility, going through this program, do you 
track them when they come out? To what extent can we really 
know whether or not we are being successful in terms of the 
intervention that we are providing these people in the 
facility?
    Mr. Green. As noted in my testimony, there were some 
studies of the program in 2000 and none since then. Quite 
frankly, Congressman we take our successes as they come, one at 
a time. We look at the transition and transformations taking 
place with these young people inside the walls. We are with 
them 24-7. Counselors are there with them. We are doing family 
groups, allowing the family to come in. It is the only group 
that has contact visits in our system.
    We are seeing it happen. We do not track beyond the walls. 
That is something that we need to do. It is a work in progress, 
but the transformation we are seeing inside of the walls, if we 
want to look right here, quite frankly, it is working very well 
because violence is down. Crime is down. The jail that was 
built in 2003 looks like it did the day it was built. It is not 
full of graffiti.
    I agree we need to go beyond the walls, and that is a 
difficult thing to do. We are engaging Parole and Probation, 
Health and Human Services, Luis and many others with this 
collaborative approach. Every other Wednesday at our facility 
we have anywhere from 40 to 50 case managers representing 
pretty much everyone in this room that sits around a table and 
talks about reentry and going home.
    That is going to be our finger in keeping tabs on them 
going into our communities. So that is the work in progress 
that we need to go forward with.
    Mr. Van Hollen. And I guess if you find them back in your 
facilities----
    Mr. Green. Of course. Obviously the recidivism comes back.
    Mr. Van Hollen. Have you seen much recidivism in this?
    Mr. Green. The recidivism rate when we were tracking coming 
into that particular program was below 20 percent, which is 
well below the national norm. I believe it falls around 67 
percent.
    Mr. Van Hollen. Right. Mr. Arretche.
    Mr. Arretche. Maybe we can divide the gang members into two 
groups. The first is those gang members who are not going to 
leave the gang activity, and the other group is performed by 
those who want to leave these kind of activities.
    It is really hard to work with the first group, but at the 
same time, we made a lot of effort trying to help the second 
group because they need a lot of resources. They need a lot of 
support, and sometimes they need a safety plan, and it is 
really hard to create a safety plan for these people.
    This is maybe the main challenge, to create a safety plan, 
and this safety plan means to find a job for these people, to 
train for this job to these people and sometimes to relocate 
them or their families. That may be the next step or the main 
thing that we need to do in order to help these young guys.
    With regard to the first group, the first step is to treat 
them as human beings. Sometimes people ask to Identity, and the 
people who are working with Identity, which is our key for our 
success, and maybe the unit key is to treat them as human 
beings.
    They have been treating us as beings for years, and when 
they find someone who treat them as humans, and when they find 
someone that tried to help, really help them, they start 
thinking that maybe there is an option. It is really hard, but 
it is not impossible. It is not impossible.
    But after showing them an option, we have to have an 
option, a real option for them, and a real option, again, means 
support, educational support, housing sometimes, and a social 
support.
    When we work with the youth at the correctional, some of 
them are afraid of the environment. They say that when they 
will come back to their homes, they fear the environment. So we 
need to change this environment.
    Sometimes our success is limited in the area of identity of 
the Crossroads Youth Opportunity Center, but we need to 
replicate the success outside of the Youth Opportunity Center, 
but for replicating the success, we need to work in the 
environment. We need to change the environment in order to 
provide them with a real opportunity.
    Mr. Van Hollen. Thank you.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    Mr. Cummings.
    Mr. Cummings. Mr. Chairman, again, I want to thank you, Mr. 
Van Hollen, for the hearing. I want to thank all of our 
witnesses for being here.
    I want to just go to you very quickly, Mr. Brown. By the 
way, all of your testimony has been wonderful. What is it that 
you--I think you talked about choices, people needing choices. 
You know, I think that a lot of times when people in the city 
think about Montgomery County, they think that you have a lot 
of people who have a lot of money and they have a lot of 
choices, and that is an image that I think comes from the fact 
that people do well here.
    On the other hand, you have a lot of people in the city who 
are not doing so well financially, and with resources people 
assume that there are choices, in other words, that there are 
opportunities for the Little League, you know, and all of those 
types of things.
    I mean, something as simple as joining the Cub Scouts in 
the city can be difficult because the kid can't afford a 
uniform. So I was just thinking. I was listening to your 
testimony. You heard the earlier testimony. Are those the kind 
of choices you were talking about, the panel before this panel?
    Mr. Brown. Well, actually, when I was coming up in the 
streets and the police were coming around, we knew when they 
were coming, and when they came around, they harassed us. They 
were not friends or anything like that. It is like if the 
police had come and it was Officer Friendly, like when I was 
really young, there was such a thing called Officer Friendly. 
There are no more Officer Friendlies anymore. You know, they 
came around and said, ``Hey, how are you doing? What is your 
name?'' got to know everyone in the neighborhood, and then when 
he came around, instead of us running, we can sit and talk to 
him. Do you know what I am saying?
    So we are all sitting out front, and this is at the wee 
hours of the night. When I say choices, I meant that we are all 
sitting out on the corner block. Things are going to happen, 
not good things, but bad things. So when the officers come 
around, they are looking for the bad things instead of trying 
to create good things, you know.
    ``OK. What are you guys doing? Hey, man, let's talk,'' you 
know, instead of the kids getting together and saying, ``Hey, 
man, there is nothing to do. Let me go rob this guy. Let me 
go--oh, she looks good. Let me go see if I can do something to 
her.''
    You know, the police, it is almost like us against them, 
and it should be a combined, joined effort.
    Mr. Cummings. You know, it is interesting. Your statement 
and the last statement of Mr. Arretche kind of overlap. You 
talk about people being treated as human beings, being 
respected. I mean, there is an overlap there. I guess you may 
notice that.
    Mr. Brown. Yes.
    Mr. Cummings. And directly connected to that, I will go to 
you, Warden. One of the most brilliant things I have ever heard 
and ever saw was the picture in here where you have these men 
holding the babies. That is absolutely incredibly brilliant. I 
do not know where you got that from or where that idea came 
from.
    Mr. Green. I did not invent it. I stole it from someone 
else.
    Mr. Cummings. Well, let me tell you something. One of the 
biggest problems is that we have seen, and I am sure all of you 
know it. Some of you all, you testified to it. We see 
generations upon generations.
    You know, I had an incident not very long ago that a young 
man was trying to get transferred from one prison to another. I 
mean, every time he could get a telephone call he called my 
office, and we finally figured out why he wanted to be 
transferred. He said he wanted to be near his father in another 
prison.
    And so this generational stuff, I mean, a lot of parents do 
not know how to parent, and so just the idea of somebody 
holding a baby, understanding that is a precious life, and as I 
say to folks, a lot of times we look at our little children and 
we forget they do grow up.
    And so I just think that is a great idea. I mean, are the 
men open to it?
    Mr. Green. Oh, yes, sir. They wait in line for it. They are 
mechanical, about $1,000 a piece. They have different keys you 
have to put into it. They simulate crying, trauma. They flunk 
the program if they do not protect the head and it snaps back.
    It, quite frankly, came from my own experience, 
Congressman, as a 38 year old first time father and someone 
handed me this child, and I am like, ``Whoa.'' You know, 
seriously, I do not want to break this. How do I do this?
    I did not know at 38. How do they know at 21 and 17?
    Mr. Cummings. Well, again, as my time runs out, I want to 
thank you all very much. This has been very informative. I was 
saying to my assistant, we want to be in contact with you all 
because there are a number of things that we want to bring up 
to Baltimore and we will be calling on you.
    But thank you all so much, and continue to do what you do. 
I know sometimes you may get a little bit discouraged, and you 
may wonder whether you are making a difference, but you are. 
You are. It may be one person at a time, but the fact is that 
not only are you affecting that person, but you are affecting 
their children, and guess what. Their children's children.
    And when we are up in heaven, hopefully, you will still be 
affecting generations yet unborn.
    Chairman Tom Davis. Thank you very much.
    Let me just add. Warden Green, I just wanted to ask. The 
language barriers, how do you address the language barriers and 
how do you educate kids and get them GEDs if they are 
illiterate in their native language?
    Mr. Green. We look at the whole myriad of issues that we 
have to face. We are very fortunate in Montgomery County that 
42 bilingual staff that we pay to be bilingual and are 
available to translate, and using translation lines and 
whatever we need or hiring a translator to come in to deal with 
that issue.
    Uniquely what we are doing now with our Spanish speaking 
population, we do not immediately pigeonhole them into an ESOL 
Program, but we are finding, again, through our association 
with Identity that if we begin to work on literacy in their 
first language, it helps us to work within the second language 
that we are trying to teach them.
    The program that we have, again, I have 108 programs 
operating within the facility. That is not an exaggeration, 
from faith based to education, formal education, special 
education, ESOL, NA, AA. We have substance abuse treatment 
inside the facility, certified treatment, all of those in one 
place.
    Chairman Tom Davis. I mean, if someone is discharged and 
they are illiterate, their chances of coming back are just 
almost automatic, aren't they?
    Mr. Green. Oh, absolutely, sir, and we are connecting them. 
Again, that whole idea of not reinventing the wheel. Whatever 
we are doing in the jail, we are creating what is already in 
the community, not our own program. So we are bringing the 
community in, and when they walk out the door, that program is 
there waiting on them.
    And I think that is just vitally important.
    Chairman Tom Davis. Let me just say to all of you thank you 
very much. Mr. Arretche, you have recorded yourself well in 
your first testimony up here.
    Mr. Arretche. OK.
    Chairman Tom Davis. And, Mr. Brown, we very much appreciate 
hearing your story, and good luck in your businesses as you 
move forward, and hopefully you can be a role model and mentor 
others as we move ahead.
    Ms. Colvin, thank you for all you do in Montgomery County, 
and the same to you, Mr. Butler.
    Thank you all very much. This has been very helpful. As I 
said, your entire statements are in the record, but I think the 
discussion has been very useful as we move forward.
    Mr. Van Hollen, thank you very much for hosting this for 
us, and hopefully we can continue and enhance our regional 
cooperation.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 3:04 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T0329.043

[GRAPHIC] [TIFF OMITTED] T0329.044

[GRAPHIC] [TIFF OMITTED] T0329.045

[GRAPHIC] [TIFF OMITTED] T0329.046

[GRAPHIC] [TIFF OMITTED] T0329.047

                                 <all>

</pre></body></html>
